<html>
<title> - REAUTHORIZATION OF THE NATIONAL SCIENCE FOUNDATION: STRENGTHENING MATH AND SCIENCE EDUCATION RESEARCH AND DEVELOPMENT</title>
<body><pre>[Senate Hearing 107-527]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-527
 
                    REAUTHORIZATION OF THE NATIONAL

                 SCIENCE FOUNDATION: STRENGTHENING MATH

             AND SCIENCE EDUCATION RESEARCH AND DEVELOPMENT
=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                             JUNE 19, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions









                           U.S. GOVERNMENT PRINTING OFFICE
80-421                            WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman
CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio
           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director






                            C O N T E N T S

                              ----------                              

                               STATEMENTS



                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............    00
    Prepared statement...........................................    00
Coldwell, Dr. Rita R., Director, National Science Foundation, 
  opening statement..............................................    00
    Prepared statement...........................................    00
Glenn, Hon. John, Chairman of the Board of Directors, The John 
  Glenn Institute for Public Service and Public Policy, opening 
  statement......................................................    00
    Prepared statement...........................................    00
Verner, Dr. Keith, Chief of Developmental Pediatrics and 
  Learning, Pennsylvania State University College of Medicine....    00
    Prepared statement...........................................    00

                          Additional Material

Lieberman, Senator Joe, prepared statement.......................    00
Rockefeller, Senator John D. IV, prepared statement..............    00
Friedman, Jerome I, Ph.D., prepared statement....................    00
Miaoulis, Ioannis, Ph.D., prepared statement.....................    00
Washington, Warren, Dr., prepared statement......................    00
American Society of Mechanical Engineers, prepared statement.....    00


                    REAUTHORIZATION OF THE NATIONAL



                   SCIENCE FOUNDATION: STRENGTHENING



          MATH AND SCIENCE EDUCATION RESEARCH AND DEVELOPMENT

                              ----------                              


                        WEDNESDAY, JUNE 19, 2002

                              United States Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 1:45 p.m., in 
Room SD-430, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, [chairman of the committee], presiding.
    Present: Senators Kennedy, Jeffords, Mikulski, Clinton, and 
Bond.

    OPENING STATEMENT OF SENATOR EDWARD M. KENNEDY, CHAIRMAN

    The Chairman. We will come to order. We are expecting some 
of our colleagues who will be joining us shortly, but I think 
we will get started.
    I want to thank Dr. Colwell, Dr. Verner and a very special 
welcome to an old and dear and valued friend, John Glenn, who 
is a national treasure and a leading authority on math and 
science education, research and development.
    The National Science Foundation has a distinguished history 
of success and has made a difference in the lives of millions 
of Americans. It has funded basic research leading to creation 
of Doppler radar, speech recognition software, and even the 
World Wide Web browsers many of us rely on today. Its education 
initiatives in the late 1980s were the forerunner for the 
standards-based school reform that is now embraced throughout 
Federal, State, and local education programs.
    Today, NSF has two key functions: first, supporting high-
end research and development in science, math, engineering and 
technology; and second, promoting cutting-edge math and science 
education reform and performance at the elementary, secondary, 
post-secondary and post-graduate levels. We look forward to 
hearing about each of those functions today.
    Advancements in biological and physical science often 
depend on each other. Federal research and development funding 
has grown, especially in the health sciences, over the last 
several years, which has been very valuable in many areas. The 
National Institutes of Health's budget has doubled over the 
last 5 years. But we should also work to grow support for 
research and development in theoretical mathematics and the 
physical sciences, not only because they are valuable in their 
own right, but also because they support advancements in the 
health sciences and other fields. In fact, we have an urgent 
need to begin today to interest young minds in math and science 
and to recruit tomorrow's mathematicians and engineers.
    Over the next 10 years the number of jobs requiring 
technical schools is projected to grow by 50 percent. 
Unfortunately, the number of American students studying math 
and science at the college level has been flat over the last 
decade. High school student performance on international math 
and science exams is distressingly low. And at a time that our 
Nation is growing more diverse, women and minorities continue 
to shy away from the sciences.
    I look forward to hearing from the witnesses today, 
reviewing the submitted testimony of others and moving forward 
with this reauthorization. We are honored to have such 
distinguished witnesses today and look forward to their 
proposals to address these challenges as we reauthorize the 
National Science Foundation.
    Of our three witnesses today, I would first like to welcome 
Dr. Rita Colwell, Director of the National Science Foundation. 
Since she became the director in 1998, Dr. Colwell has 
emphasized K-through-12 science and math education, graduate 
science and engineering education and training, and has tried 
to increase the participation of women and minorities in 
science and engineering.
    Before coming to the NSF, Dr. Colwell was president of the 
University of Maryland Biotechnology Institute. She was also a 
member of the National Science Board from 1984 to 1990. Dr. 
Colwell has received numerous accolades and honorary degrees. 
In addition, she was born in Beverly, MA. So, I am pleased to 
have Dr. Colwell here today to update us on what NSF has been 
doing and on the future plans for the agencies.
    And we will have the presentation by our friend Senator 
John Glenn, who is here with us today to discuss his views on 
secondary education, the importance of math and science 
education. Following Senator Glenn's retirement from the United 
States Senate, he focussed a great deal of his time on math and 
science education and spearheaded the Glenn Commission report, 
``Before It's Too Late.'' I am grateful to have Senator Glenn 
back in the Senate today to talk about the Commission's report 
and priorities for math and science education and research. He 
has already made available to all of us a videotape and report 
on the Commission work, which I know our colleagues will value. 
I will ask the staffs to make sure that they give those to the 
Senators.
    Then finally, Keith Verner we are pleased to welcome. Dr. 
Verner is the chief of Developmental Pediatrics and Learning at 
Pennsylvania State University College of Medicine. Besides his 
extensive experience as a professor, he has authored several 
publications related to health education and science research. 
I am pleased to have Dr. Verner here today to discuss the 
importance of both NSF's and the Department of Education's math 
and science partnerships.
    Dr. Colwell, we will start with you.
    [The prepared statement of Sen. Kennedy follows:]

            Prepared Statement of Senator Edward M. Kennedy
    Thank You, Dr. Colwell and Dr. Verner, for joining us. We're 
especially pleased to have with us also Senator Glenn, who is a 
national treasure and leading authority on math and science education, 
research, and development.
    The National Science Foundation has a distinguished history of 
success and has made a difference in the lives of millions of 
Americans. It has funded basic research leading to the creation of 
doppler radar, speech recognition software, and even the World Wide Web 
browsers many of us rely on today. Its education initiatives of the 
late 1980s were the forerunners for the standards-based school reform 
that is now embraced throughout Federal, State, and local education 
programs.
    Today, NSF has two key functions: First, supporting high-end 
research and development in science, math, engineering and technology. 
And second, promoting cutting-edge math and science education reform 
and performance at the elementary, secondary, post-secondary and post-
graduate levels. We look forward to hearing about each of those 
functions today.
    Advancements in biological and physical sciences often depend on 
each other. Federal research and development funding has grown, 
especially in the health sciences, over the last several years, which 
has been very valuable in many areas. The National Institutes of 
Health's budget has doubled over the last 5 years. But, we should also 
work to grow support for research and development in theoretical 
mathematics and the physical sciences--not only because they are 
valuable in their own right, but also because they support advancements 
in the health sciences and other fields.
    In fact, we have an urgent need to begin today to interest young 
minds in math and science, and to recruit tomorrow's mathematicians and 
engineers. Over the next 10 years, the number of jobs requiring 
technical skills is projected to grow by 50 percent.
    Unfortunately, the number of American students studying math and 
science at the college level has been flat over the last decade. High 
school student performance on international math and science exams is 
distressingly low. And at a time that our Nation is growing more 
diverse, women and minorities continue to shy away from the sciences.
    I look forward to hearing from the witnesses here today, reviewing 
the submitted testimony of others, and moving forward with this 
reauthorization.
    We are honored to have such distinguished witnesses today, and look 
forward to their proposals to address these challenges as we 
reauthorize the National Science Foundation.

 OPENING STATEMENT OF DR. RITA R. COLWELL, DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Ms. Colwell. Thank you, Mr. Chairman. I would like to thank 
you and the Committee for the opportunity to discuss the 
President's budget request for the National Science Foundation. 
The National Science Foundation's budget request is $5.036 
billion for fiscal year 2003, $240 million or 5 percent more 
than the previous fiscal year. For the United States to stay on 
the leading edge of discovery and innovation, we cannot do 
less.
    My written testimony contains the specific funding levels 
for our various initiatives and programs, but the NSF is keenly 
aware and deeply appreciative of this Committee's strong 
interest in improving the quality of education in this country, 
so I wanted to briefly discuss some of the steps that NSF is 
taking to strengthen our math and science education.
    Everyone agrees that we need to improve our preK-12 
education system. America's knowledge-based society in the 21st 
Century puts a premium on the importance of research, 
innovation, and human capital as our principal strengths. 
Still, at the dawn of the 21st Century we continue to see 
depressingly familiar news stories about why Johnny knows 
little about science and why he lags in math. Information 
technology, for example, has revolutionized America's 
businesses, but it also poses new demands. The Commerce 
Department projects that 60 percent of the new jobs in the year 
2020 will require skills possessed by only 22 percent of our 
workers today. The Labor Department projects that new jobs 
requiring science, engineering and technical training will 
increase by 51 percent by 2008.
    Only about 5 percent of the 24-year-olds in this country 
have earned degrees in the natural sciences or engineering. By 
that measure we now trail Japan, Korea and the United Kingdom. 
A decade ago we were leading.
    We are right to be concerned about a seeming mismatch 
emerging between the skills that workers possess and the skills 
that employers demand. How can it be that a Nation that spends 
more than $300 billion on public K-12 education invests less 
than .1 percent of that amount to determine which educational 
technologies actually work and how they can be improved?
    Well, NSF does not have a magic wand, but we do have an 
impressive portfolio of research and education programs that 
are designed to help address these and other challenging 
problems. One of the most encouraging highlights of our fiscal 
year 2003 budget request is a second installment of a $200 
million program for President Bush's national 5-year, $1 
billion math and science partnership program, the MSP, to 
ensure that no child is left behind. The goal of the MSP 
program is to link local schools with colleges and universities 
to improve the preK-12 math and science education, to train 
teachers, and create innovative ways to reach out to the 
underserved students and schools.
    The NSF and the Department of Education have formed a Tiger 
Team which meets approximately twice a month to discuss 
important programs and activities that support our common goals 
in math and science education. Demonstrating the success of our 
partnership approach, these Tiger Team discussions resulted in 
the development of an approach to jointly manage the review and 
award process for the first math and science partnership 
competition. The review panels met very recently to examine the 
appropriate 290 MSP proposals that had been submitted. The 
Department of Education staff worked closely with NSF's staff 
in the management of this process and we expect to announce the 
first set of the MSP awards later this summer.
    Now for MSP to succeed we have to first ensure that 
genuinely productive partnerships are established between 
schools and colleges. A second distinguishing feature of the 
MSP is that it will not be an isolated set of local 
partnerships, but will become part of a national science, 
technology, engineering and mathematics education portfolio of 
interconnected sites so that successful methods can be shared 
to benefit all students.
    Through the programs like MSP, our education portfolio is 
evolving to meet the critical needs of our Nation's future 
workforce. We must draw on our full talent pool if our work 
force is to truly reflect the face of America. We must attract 
more students, especially minorities and women, to pursue 
careers in science, mathematics, technology and engineering.
    In recent years the number of engineers graduating from our 
universities has decreased by over 20 percent. Over half the 
doctoral candidates in math and physical sciences in our 
Nation's universities are from other countries, with an 
increasing number returning home after completion of their 
studies.
    Competition from other nations continues to increase. U.S. 
investment in broad-based fundamental research, which takes 
place largely in our universities, must not be allowed to slip. 
President Bush and his administration have recognized that we 
need to invest more in scientific and technological research 
across all of the scientific disciplines. The President's 
science adviser recently testified that the balance in this 
broad research portfolio recognizes that advances in one field, 
such as medicine, are often dependent on gains in other 
disciplines. Diversified investments across the full spectrum 
maximize our returns, both financial and technical. And this 
view was echoed by Harold Varmus, the former NIH director, when 
he noted that ``Medical advances may seem like wizardry, but 
you pull back the curtain and sitting at the lever is a high-
energy physicist, a combinational chemist or an engineer.''
    The National Science Foundation is uniquely positioned to 
help push forward one of the Nation's highest priorities--
improving education for all children. Educational research, the 
science of education, is a key component. We still do not know 
how we learn, how we remember, or how we think, yet I believe 
there is no field in which major advances would have more 
profound effects for human progress.
    Mr. Chairman, I would be pleased to respond to any 
questions that the Committee may have. Thank you.
    [The prepared statement of Ms. Colwell follows:]

               Prepared Statement of Dr. Rita R. Colwell
    Chairman Kennedy, Senator Gregg, and Members of the Committee, 
thank you for providing this opportunity to discuss the President's 
budget request for the National Science Foundation.
    America's present and future strength, prosperity and global pre-
eminence depend directly on fundamental research.
    Every year, the Foundation's optimal use of limited public funds 
has relied on two conditions: number one, ensuring that our research 
and education investments are aimed--and continuously re-aimed--at the 
frontiers of understanding.
    Number two, certifying that virtually every dollar goes to 
competitive merit-reviewed, and time-limited awards with clear criteria 
for success.
    Moreover, NSF puts the greatest share of its resources where they 
will do the most good: in the Nation's colleges and universities where, 
in addition to generating the truly new ideas that define the future, 
every dollar invested contributes to developing and training the next 
generation of researchers and educators.
    Moreover, NSF has been proactive in implementing the President's 
Management Agenda, and we welcome--and apply--input from many sources 
to continuously improve the way we manage programs at NSF.
    When these conditions are met, our Nation gets the most 
intellectual and economic leverage from its research and education 
investments.
    The National Science Foundation is requesting $5.036 billion for 
FY2003, $240 million, or 5 percent more than the previous fiscal year. 
For the United States to stay on the leading edge of discovery and 
innovation, we cannot do less.
    Let me stress that the priority setting process at NSF results from 
continual consultation with the research community. New programs are 
added or enhanced only after seeking the combined expertise and 
experience of the science and engineering community, the Director and 
Deputy, and the National Science Board.
    Programs are initiated or enlarged based on considerations of their 
intellectual merit, broader impacts of the research, the importance to 
science and engineering, balance across fields and disciplines, and 
synergy with research in other agencies and nations. NSF coordinates 
its research with our sister research agencies both informally--by 
program officers being actively informed of other agencies' programs--
and formally, through interagency agreements that spell out the various 
agency roles in research activities.
    Partnerships among agencies are proliferating mainly because they 
offer the best hope for finding answers to some of the most challenging 
research problems. These partnerships are truly changing the face of 
science. NSF is the lead agency for two multi-agency administration 
initiatives in the most promising research fields, information 
technology and nanotechnology. Knowledge breakthroughs in these two 
areas alone will fundamentally change the face of research in research 
areas across the board.
    I am keenly aware and deeply appreciative of this Committee's 
strong interest in improving the quality of education in this country, 
so I wanted to take a few minutes to discuss some of the steps NSF is 
taking to strengthen our math and science education.
    Everyone agrees that we need to improve our preK-12 education 
system. America's technology-driven economy demands innovative thinkers 
to create new industries and fill the ever more demanding jobs these 
new industries generate.
    How can it be, at the dawn of the 21st Century, that we still see 
news stories about ``why Johnny can't read'' or ``why Johnny can't 
count?''
    How can it be that a Nation that spends more than $300 billion on 
public K-12 education invests less than one-tenth of 1 percent of that 
amount to determine ``what actually works,'' and to find ways to 
improve educational technologies? NSF does not have a magic wand, but 
we do have an impressive portfolio of research and education programs 
designed to help address these and other challenging problems.
    One of the most encouraging highlights of our FY03 budget request 
is a second installment of $200 million for President Bush's national 
5-year, $1 billion Math and Science Partnership Program (MSP) to ensure 
that ``no child is left behind.'' The strategic focus of MSP is to link 
the Nation's higher education institutions with local, regional and 
State school districts and other partners. MSP calls for a significant 
commitment by colleges and universities to help improve the quality of 
science and mathematics instruction in our schools. Additionally, the 
program calls for greater investment in the recruitment and 
professional development of highly competent science and math teachers. 
I would like to note that NSF and the Department of Education are 
working closely together to effectively manage this joint investment in 
math and science education. Review panels are currently underway for 
the first round of MSP proposals, and Department of Education staff is 
fully involved in this process along with NSF staff.
    For MSP to succeed we must first ensure that productive 
partnerships are established between schools and colleges. A second 
distinguishing feature of MSP is that it will not be an isolated set of 
local partnerships, but will become part of a national science, 
technology, engineering and mathematics (STEM) education portfolio of 
interconnected sites that will share successful methods so that all 
students benefit. MSP seeks to improve student achievement in 
mathematics and science by all students, at all pre-college levels. NSF 
doesn't have all the answers, but through programs like MSP, our 
education portfolio is evolving to meet the critical needs of our 
Nation's future workforce.
    That S&T workforce should also reflect the face of America. We must 
attract more of our youngsters, especially minorities and women, to 
pursue careers in science, mathematics, technology, and engineering. We 
must draw upon our full talent pool. One of the steps NSF is taking to 
attract more of the Nation's most promising students to science and 
engineering is an investment of approximately $37 million in FY03 to 
increase annual stipends for graduate fellows to encourage them to 
pursue technical careers. Other NSF programs geared toward helping this 
underrepresented segment of our population can hopefully make a 
difference in their recruitment, retention, and advancement in 
technical fields.
    The budget also includes funding for six priority areas, including 
$221 million for nanotechnology research, $286 million for information 
technology research, and $60 million as part of a new priority area in 
mathematical and statistical sciences research that will ultimately 
advance interdisciplinary science and engineering. $185 million is 
directed toward NSF's Learning for the 21st Century Workforce priority 
area--including $20 million to fund three to four new multi-
disciplinary, multi-institutional Science of Learning Centers to 
enhance our understanding of how we learn, how the brain stores 
information, and how we can best use new information technology to 
promote learning.
    We are also requesting $10 million to seed a new priority area in 
the social, behavioral, and economic sciences to explore the complex 
interactions between new technology and society so that we can better 
anticipate and prepare for their consequences.
    The budget requests $79 million for research on biocomplexity in 
the environment. This builds upon past investments to study the 
remarkable and dynamic web of interrelationships that arise when living 
things at all levels interact with their environment. Research in two 
new areas this year--microbial genome sequencing and ecology of 
infectious diseases--will help develop strategies to assess and manage 
the risks of infectious diseases, invasive species, and biological 
weapons.
    I should add that as part of the Administration's new multi-agency 
Climate Change Research Initiative, we will implement a $15 million 
research program to advance understanding in highly focused areas of 
climate science, to reduce uncertainty and facilitate policy decisions. 
Our budget also includes $76 million for programs slated to be 
transferred to NSF from NOAA, EPA, and the USGS.
    Although we did not seek these transfers, we take considerable 
pride in the fact that of the 26 Federal agencies judged by OMB in five 
key management areas, only the National Science Foundation received a 
green light. NSF is noted for its expertise and success in funding 
competitive research, and this was certainly a factor in this 
recognition .
    In large facilities, we will continue support for the next phase of 
construction of the Atacama Large Millimeter Array (ALMA). New 
construction projects in the FY2003 budget include two prototype sites 
of the National Ecological Observatory Network (NEON) at a cost of $12 
million to analyze data to detect abrupt changes or long-term trends in 
the environment. The budget also requests $35 million for EarthScope to 
detect and investigate earthquakes, volcanic eruptions, and landslides 
on the North American continent.
    The events following September 11 demonstrated our capacity to 
engage the research community in ways that are immediately responsive 
to national needs--ranging from the analysis of a catastrophic 
structural collapse to the use of robotics in victim location. We owe 
this flexibility to a highly trained scientific and engineering 
workforce capable of selecting the most interesting and challenging 
problems for their research. It is this flexibility, enabled by the 
merit review system that makes our science and technology enterprise 
the envy of the world.
    The Bush Administration has recognized that we need to invest more 
in scientific and technological research--across the board. Other 
nations are building up their R&D commitments. U.S. investment in 
broad-based fundamental research--which takes place largely in our 
universities--must not be allowed to slip. I think Harold Varmus said 
it best when he said, ``The NIH does a magnificent job, but it does not 
hold all the keys to success. The work of several science agencies is 
required for advances in medical sciences, and the health of some of 
those agencies is suffering.''
    The National Science Foundation is the only Federal agency whose 
primary mission is to advance science, engineering and mathematics 
across all disciplines. By doing so we support national defense, help 
our country remain internationally competitive, and provide a better 
standard of living for our citizens. As we work to develop the finest 
scientists and engineering for the 21st Century, our human resources 
policy must move beyond simply the supply and demand of personnel and 
address the composition of our science and engineering workforce. There 
is much room for needed improvement and continued policy 
considerations.
    Mr. Chairman, for those who want to examine the NSF budget in 
detail, it is fully laid out on our website. I would be pleased to 
respond to any questions that the committee may have.

    The Chairman. Before we move to Senator Glenn, I notice 
Senator Kit Bond was here earlier and we have been joined by 
Barbara Mikulski, who I know was looking forward to the 
testimony of Dr. Colwell and I should have asked John Glenn to 
lead off first on it, but I note her presence here. If there is 
anything she wanted to add about Dr. Colwell at this time?
    Senator Mikulski. Yes, thank you very much, Mr. Chairman.
    First of all, Dr. Colwell comes as--we greet everyone, our 
dear colleague Senator Glenn and, of course, Dr. Verner, but 
Dr. Colwell comes to us from the State of Maryland where she 
has been acknowledged in the University----
    The Chairman. I do not correct Senator Mikulski on any 
matters----
    Senator Mikulski. Why? Do not tell me----
    The Chairman. She was born in Massachusetts. But I have 
learned, since she is an appropriator, it is much better to let 
things go by. There are not many instances where I can----
    Senator Mikulski. Mr. Chairman, you know as an authorizer, 
it is not where you start out; it is where you end up.
    The Chairman. That why I am going to keep quiet.
    Senator Mikulski. Dr. Colwell arrived in Maryland, came to 
the University of Maryland and to my colleagues, we know that 
Dr. Colwell is really an outstanding scholar in her own right. 
She is an award-winning scholar, acknowledged by her peers. She 
is a talented administrator. Under her stewardship at the 
National Science Foundation, she has been a leader, she has 
been effective, and I think she brings to us today a framework 
for the future on how we can take this great invention of the 
old century and make it contemporary, fiscally responsible for 
the new century. I know we will look forward to her testimony.
    And I am so pleased that I was joined by my brother 
appropriator, Senator Bond, because, you know, we are deeply 
committed to doubling the National Science Foundation's budget 
and we look forward to working with our authorizers for the 
right policy framework.
    The Chairman. Senator Bond, we would welcome any comment 
that you might make.
    Senator Bond. Mr. Chairman, if I may impose upon our 
witnesses, I had a couple of thoughts I wanted to share about 
the National Science Foundation and I have some other things 
this afternoon which may preclude my returning, so I am very 
pleased to join you and my Chairman on the Appropriations 
Committee for NSF.
    Ms. Colwell has been to Missouri many times, if that helps.
    Ms. Colwell. My daughter graduated from Wash. U., sir.
    Senator Bond. Wash. U.? Okay, so everybody has a claim.
    Senator Mikulski and I do have a very special interest in 
the NSF and I want to focus on something that Dr. Colwell was 
talking about on math and science education. Since we have 
raised these issues, we fought for these issues, I am on the 
Budget Committee and on Appropriations and we have lots of 
other things to talk about, but as Senator Mikulski has said, 
we have been leading a bicameral, bipartisan effort to double 
the NSF budget and we would like to see the reauthorization 
bill support this doubling.
    We strongly believe that doubling NSF's funding will not 
only support the strong role that NSF plays in basic science 
research, but also in the critically important area of 
education that Dr. Colwell was discussing earlier.
    Now when people think of Education they think of the 
Department of Education, but not enough people understand the 
critical role that NSF plays in supporting math and science 
education and developing the Nation's supply of scientists and 
engineers. As Dr. Colwell has said, they are in short supply. 
We face a real crisis in this field if we do not improve our 
production of educated scientists and engineers.
    Despite our efforts on the Appropriations Committee, the 
Federal Government just has not provided adequate support to 
the NSF and the physical sciences in general. I believe this 
lack of support for physical science puts our Nation's 
capability for scientific innovation at risk and, equally 
important, as also has been mentioned, at risk of falling 
behind other nations. Therefore I would strongly urge my 
colleagues on this Committee to join Senator Mikulski and me.
    One other point that I think is vitally important when we 
talk about doubling the NSF budget, many medical doctors in 
Missouri and throughout the country tell me that despite the 
tremendous support we have provided for life sciences in NIH, 
their research in the biomedical field will stagnate without 
adequate Government support of the physical sciences that NSF 
supports. Many medical technologies, such as magnetic resonance 
imaging, ultrasound, digital mammography, genomic mapping, 
could not have occurred and cannot improve to the next level of 
proficiency without NSF-supported work in biology, in physics, 
chemistry, math, engineering, computer sciences. Simply put, if 
we want to see medical advances we cannot just double the 
funding of NIH. We must double the funding of NSF, and NSF is 
far behind.
    Now I think to go back to the education part of it, the 
high-tech industry is also concerned about NSF funding because 
they are struggling to find qualified home-grown engineers and 
scientists and they have to rely more on foreign nationals. 
Many notable researchers in the high-tech industry have told me 
that the significant shortage of trained American engineers and 
scientists have limited the growth potential of the electronics 
and software industries and allowed foreign competitors to 
catch up to U.S. industry capabilities.
    To address the tech talent in this country, NSF provides a 
wide array of support to preK-12, undergraduate and graduate 
level schools. One new important tool is the Math and Science 
Partnership program jointly administered with DOE. Under this 
program, NSF is encouraging partnerships with local schools, 
higher education, and other organizations to improve student 
outcomes. I hope we can address this in this bill.
    The last area I want to mention is math and science 
education at the undergraduate level. As noted, we are falling 
behind in the number of students receiving degrees despite the 
growth in our population and the increase in undergraduate 
enrollment. In other countries we see the numbers going up and 
we are having to depend too much on foreign students for the 
scientists and engineers we need. We love having the resources 
coming in from other countries, but we cannot depend upon 
others solely to educate our scientists and engineers.
    Demand for engineers and computer scientists is expected to 
grow by more than 50 percent by 2008 and the high-tech industry 
is justifiably concerned that it will become increasingly 
difficult to fill this demand and remain competitive.
    In response to this problem my Senator colleagues, Senators 
Lieberman, Frist, Mikulski and Domenici, and I introduced S. 
1549, the Tech Talent Act, to improve undergraduate education 
in math, science, engineering and technology. In our VA-HUD 
Independent Agencies Act for this year we jump-started it with 
$5 million. Sometimes when the authorizers fall behind, we kind 
of give them a little help in the appropriations process. NSF 
has already received 177 applications requesting some $60 
million. We have many co-sponsors on the Tech Talent Act. I 
hope my colleagues will support this in the reauthorization 
bill.
    I look forward to working with you, Mr. Chairman, and the 
Commerce Committee in developing a strong bipartisan NSF 
reauthorization. Thank you.
    Thank you very much, Senator Bond, for a very important 
statement. If you had listened to Eliza Sunni, who came here 
for the leadership in terms of the National Institutes of 
Health, he spoke very importantly about the same point that you 
made about the importance of tying in the basic research that 
is done in the life sciences with the other kinds of research 
in the more technical fields.
    Senator Bond. I told him my favorable vote on 
confirmation----
    The Chairman. Well, you have done it again. But in all 
seriousness, I think all of us are impressed by both your 
statement and the statement of Senator Mikulski about giving 
additional resources and focus to what is a real national 
challenge.
    Senator Glenn, welcome. We missed you very much and we 
admire your long-time career of public service in the interest 
of the country, as one who is at the cutting edge of research 
and exploration in the atmosphere, a distinguished record here 
as a Member of the Senate and now awakening the country to the 
importance of ensuring that the young people and our Nation is 
going to be well equipped to deal with the challenges of this 
century and beyond. So we are very grateful for your presence 
and very grateful for your continued service to the Nation.

OPENING STATEMENT OF HON. JOHN GLENN, CHAIRMAN OF THE BOARD OF 
  DIRECTORS, THE JOHN GLENN INSTITUTE FOR PUBLIC SERVICE AND 
                         PUBLIC POLICY

    Senator Glenn. Thank you very much, Mr. Chairman and 
Members. It is an honor to be asked to come back and to 
testify. I have a more lengthy statement that I would like to 
submit for the record.
    The Chairman. Fine.
    Senator Glenn. It has a lot more detail in it.
    I wanted to acknowledge, too, Linda Rosen, who came with me 
today, who did a lot of work on this. She formerly was National 
Council of Teachers of Mathematics as their executive director, 
was in the Department of Education with Secretary Riley as his 
principal adviser on math and science matters, and more 
recently has been senior vice president for education in the 
National Alliance of Business, and was a teacher of math before 
that in the public school system.
    So I would like to submit that statement from and make some 
verbal remarks here and then answer any questions.
    We all talk about education, but I would like to emphasize 
today a particular aspect of it, not just education in general, 
but a specific that I feel is critical that we must deal with, 
and it has already been addressed here to some extent. Math and 
science education and particularly in our K-12 system, I think 
there is a major question, a big question about whether it is 
adequate to provide U.S. leadership in the future world, and 
that is not overstated. If we think about all the things that 
we have--the products, automobiles, air conditioners, 
communications, houses, microphones, lights, everything else--
they all have some basis in math and science.
    Whether you are talking about manufacturing or agriculture, 
food, transport, or our standard of living, they are all based 
in what we do in math and science. We have been ahead of the 
rest of the world because our math and science excellence and 
the research that came from that in just a short time frame of 
international history of only a little over 200 years--it has 
been good enough in the past, yes, but it is not necessarily 
good enough for the future.
    A couple of things have happened. One, it hasn't been too 
many years since globalization was just a big word, a theory 
for the future perhaps, but now it is real. The second area is 
that other nations are emphasizing math and science more than 
we are in their school systems.
    Now globalization, if you think about it in the morning, 
you turn on your TV set and you see the Wall Street quotes on 
stocks, closely followed by the Hang Seng Index, the Nikkei 
Average, the Frankfurt quotes, quotes of the eurodollar, right 
on around the world, indicating that tens upon tens of billions 
of dollars are floating around the world all the time looking 
for places to go where there is good research, where there is 
entrepreneurship and where there are trained workers, and that 
is what the other nations are now out-doing in preparing their 
people for that kind of a world in math and science in 
particular.
    It is not that our kids are getting dumber; they are not 
going down in their IQ. It is just that other nations are 
beginning to recognize what the goose was that laid the golden 
egg for the United States and they are emphasizing their 
science, particularly math and science, and they are beginning 
to out-do the United States of America, of all things.
    Now this is what concerned Secretary Riley in the last 
administration. He had seen the Third International Math and 
Science Study and the National Assessment of Education 
Progress, NAEP. The TIM Study, as the first was called, was a 
study done of K-12 education with 41 nations around the world. 
What it basically found was that our kids, up to about the 
fourth grade, do fine. We are in the top few nations in the 
world in math and science up through about the fourth grade. 
Then things start deteriorating and by the time our kids get 
out of high school, we are near last in comparison with these 
41 nations around the world.
    Now when we looked into this, Secretary Riley asked me to 
chair the National Commission on Math and Science Teaching for 
the 21st Century, which I did. We had a very notable group we 
put together for that--educators, legislators, some Members of 
this Committee; the Chairman was a Member of the Commission. We 
had leading educators from all over the country come in, 
particularly in this area of math and science.
    Now what we found out was that about one-fourth of our math 
teachers in this country never had any training in teaching 
math. They are teaching out of field. They never had any 
training as either a major or a minor when they were in 
college. Twenty percent of our science teachers were the same. 
Thirty percent of both math and science teachers, on the 
average, leave the profession within 3 years, and 50 percent 
are gone within 5 years. Now that is a boiling turnover that we 
cannot tolerate for the long term.
    There are also some differences in the ways of teaching 
that we saw when Jim Stigler from San Diego, who had done 
international studies of teaching methods, showed us some of 
the different things that are used in Japan to teach and how 
their methods of teaching vary from ours, and also in Germany. 
Where our kids are taught more in rote and memorization, the 
Japanese model for their kids is that they teach more problem-
solving, thinking about it, are given a problem and then are 
asked to solve it. Then they get back to trying to determine 
within the class how they got to their final solutions on this. 
It is a different approach to education entirely.
    Now if we doubt that this is an emergency, the emergency is 
already here and the Congress itself here has witnessed that 
because back a number of years when I was still in the Senate 
here, as a matter of fact, we passed legislation which 
permitted an immigration waiver of 115,000 people per year over 
a 3-year period because industry and business was coming in 
telling us we just cannot get our own people into these high-
tech jobs; we do not have the people to fill the jobs.
    So we passed that legislation and that did not even solve 
it. So about 2 years ago the Congress passed again an 
immigration waiver of 195,000 per year for 3 years of highly 
technically trained people. As I say, this was done mainly at 
the request of business and industry and the computer people, 
who could not get people to fill those good jobs.
    Now how do we correct this? In our system, if we can say 
that it is a system at all, it is very difficult. All of our 
competitive nations around the world, the major ones, have a 
national education system through K-12. In this country we do 
not have an education system as such. What we have are a little 
over 14,700 independent school boards all getting elected 
independently and doing their own thing. So we do not have a 
system and the Federal impact on this, I think, is somewhere 
around 7 percent of the funding and a lot of that goes to 
school food programs and lunch programs and things like that.
    So it is very difficult. We cannot do like Britain did a 
few years ago and say we have to upgrade our math and science, 
so they call about five meetings around the country, they 
change their curriculum, it goes into effect next fall. We 
cannot do that here because we are operating with 14,700 school 
boards, each one doing their own thing, and I might add too 
many of them getting elected by promising not to raise your 
taxes as a basis for why they are elected.
    So we do not have an education system that we can just plug 
in and say we are going to change the system and make it more 
effective.
    So what can we do? What our study showed, we approached 
this in three different areas. We wanted to improve the present 
teacher force, the ones that are out there right now. Second, 
we wanted to have greater numbers of teachers in preparation. 
We wanted to recruit teachers. Then number three, make that 
work environment one in which we could make teaching attractive 
and make it as financially rewarding as the competition is, the 
competition being business and industry that hires away too 
many of our best teachers. So that is something we tried to 
address with this report.
    The report, which we have given to each Member of the 
Committee--I hope the staff, as you suggested, Mr. Chairman, 
will take this to your Senator and make sure that they have a 
chance to see it. Michael Eisner at Disney also volunteered 
their efforts to put this on tape, videotape, so we gave each 
one of you a copy of that, also.
    To make sure this got to the people that we felt could make 
the biggest change in the shortest time period, we mailed this 
to every school board member and superintendent in America, and 
that was a big job and that was our objective. We think that we 
actually got about maybe 85 percent. So this report has gone 
out, so the school board members across the country should have 
seen this. We hope they take it to heart and do something about 
it.
    Under each one of these three titles, the three goals that 
we had, we have a number of things that could be done under 
each one of these and they are listed in that report. We will 
not have time here today to go through all of these things 
separately, but under the improvements that can be done right 
now, in place, are such things as a needs assessment first, 
having summer institutes, inquiry groups, leadership training, 
Internet portal access, a coordinating council for math and 
science teaching, and a rewards program.
    Now under the others, we had, number two----
    The Chairman. John, we have about 5 minutes left on this 
vote. Senator Mikulski will be back in a couple of minutes. She 
voted early. So she will continue and I will be back in about 6 
or 7 minutes for the questions.
    Senator Glenn. Good.
    The Chairman. We will recess just for 2 or 3 minutes.
    [Recess.]
    Senator Mikulski [presiding]. The hearing will reconvene. 
And while Senator Kennedy is voting, I am going to go to some 
of my own questions. I also ask unanimous consent that my own 
statement go into the record because we know that the hearing 
has been interrupted, but we have read the testimony of both 
Senator Glenn and, of course, Dr. Verner.
    [The prepared statement of Senator Mikulski follows:]

                 Prepared Statement of Senator Mikulski
    Thank you Mr. Chairman.
    Doubling NSF's Budget: Two years ago, Senator Bond and I started 
the call to double NSF funding over five years. Unfortunately, budget 
constraints prevented us from reaching that goal.
    But now we have an opportunity to take a major step forward. By 
authorizing a doubling of NSF funding, we will be sending a powerful 
message to OMB. If we can double NIH, we can double NSF.
    The only way we can double NSF is through cooperation between the 
Administration and Congress. It is unfortunate that OMB provided NSF 
with a just a 3 percent increase for this year. 3 percent increases are 
just not good enough.
    Over the past 10 years, we have had essentially a flat Federal R&D 
budget. We cannot continue on this path.
    Why double NSF? Because of the double value we get for our 
investment.
    Double Value: First, we get cutting edge research in science, 
unlocking the mysteries of our universe.
    Second, we get new technologies that will create new jobs and new 
markets for our economy.
    The future of our economy in science and technology rests on three 
pillars: Information technology, Biotechnology and, Nanotechnology.
    It is critical that we increase funding for these interdisciplinary 
programs as well as traditional basic scientific research.
    Over the past several years, funding for the life sciences has far 
outstripped funding for the physical sciences. Doubling NSF will help 
correct this imbalance and increase funding for the core physical 
sciences.
    Over the past 10 years, research in the life sciences has grown 
from 41 to 47 percent of total Federal research funding, while at the 
same time, the combined share of physical sciences and engineering in 
Federal research dropped from 37 to 29 percent.
    Education: The only was we can reach our national goals in these 
disciplines, is if we have a growing corps of math and science 
students. The Bureau of Labor Statistics predicts that during this 
decade, hitech occupations will grow by 47 percent, compared to 15 
percent for the labor force as a whole.
    Improving the quality of math and science education is critical. 
Each year, the VA/HUD Subcommittee increases funding for math and 
science education. But we also need to look at new approaches.
    That is why I co-sponsored the Tech Talent legislation last year, 
along with Senator Lieberman, and included $5 million in the VA/HUD 
bill.
    The Tech Talent bill seeks to improve the quality of undergraduate 
science education through innovative undergraduate programs. We need to 
increase graduate student stipends to keep attracting more graduate 
students to research.
    Last year, I increased graduate stipends from $18,000 per year to 
$21,500 per year. But, the real crisis is found at the middle school 
and high school level, we need to attract more teachers in math and 
science.
    U.S. high school students taking physics lag behind students in 
Norway, Sweden, Russia, Denmark, Slovenia, Germany, Australia and seven 
other countries.
    According to the Glenn Commission, the nation will need 240,000 
middle and high school mathematics and science teachers in the next 
decade.
    A survey of urban school districts, by the Council of the Great 
City Schools indicated that up to 95 percent of our urban school 
districts had an immediate demand for high school science and 
mathematics teachers.
    The fact is that this country's future competitiveness rests on our 
ability to develop a U.S. work force that has the skills necessary to 
meet the increased competition coming from abroad.
    Solving the problem of producing more high-quality, homegrown 
scientists and engineers--and a well educated workforce--depends upon 
solving the math and science education problems we have at the 
elementary and secondary levels of our school system.
    Conclusion: We have a big challenge ahead of us as we enter the new 
millennium. The proposal we have on the table is one that would double 
the National Science Foundation. That is a goal I have been working 
towards for the past several years and together with Senator Bond, this 
Committee and the rest of my colleagues in the Senate, I hope we can 
make it a reality.

    I would like to go right to my questions related to Dr. 
Colwell.
    Ms. Colwell, as you have heard Senator Bond and I say, we 
would like to double the funding of the National Science 
Foundation. This is not merely rhetoric but, as you know, we 
have been working on a bipartisan basis to double the funding 
of the National Institutes of Health. That national effort has 
served the Nation well and we believe the NIH. Yet, at the same 
time, we are deeply concerned that the focus on physics, 
chemistry, the basic building blocks of science have been 
underfunded and often overlooked. This also is true of very 
important research that is needed, as well as developing the 
next generation of scientists.
    So having said that, could you share with us, as we do the 
march to double the funding for the foundation, what would NSF 
do that it cannot do now and what do you think should be the 
most important priorities for doubling? I will just let you, 
rather than me have a long question, let me have a short 
question and you have a long answer.
    Ms. Colwell. Thank you, Senator. Whether the NSF budget is 
doubled or tripled or even stays the same, our priorities are 
going to match the Federal Government's three overarching 
priorities; namely, defeating global terrorism abroad, 
protecting us at home, and strengthening our economy. Now this 
goes across all the scientific disciplines. Let me just show 
you how the NSF is making unique contributions to each of these 
priorities and that is where we would like to see strength.
    That is in basic research, from blue sky to blueprint, it's 
always going to be the most important to protect our armed 
forces. If you trace any useful item in our arsenal back to its 
origins, you will discover that the basic research in physics, 
chemistry and materials----
    Senator Mikulski. Doctor, remember I have 5 minutes.
    Ms. Colwell. Yes, I do, Senator. Physics, chemistry and 
material science are very important. They are a crucial step. 
We also have been supporting a dozen research areas that impact 
on defense, like intelligence-gathering and secure systems. 
This is----
    Senator Mikulski. You do intelligence-gathering at the 
National Science Foundation?
    Ms. Colwell. Not intelligence-gathering, but the capacity 
through information technology, cybersecurity, to enable 
intelligence-gathering, Senator, I think is really critical.
    Also, I think that we must invest in education K-12, 
education in our undergraduate schools, education at the 
graduate level, for the scientists and engineers that we need 
for the workforce. We have to, I think, address the major 
directions of nanotechnology, the social and behavioral 
sciences. We have an initiative request in this budget which is 
critical, and that is understanding risk, risk assessment, 
understanding the capacity for the computer-human interface, 
the directions that we----
    Senator Mikulski. Doctor, I appreciate that, but I was 
looking for a few more practical things. For example, right now 
the average grant at NSF is $125,000. Is there a backlog of 
really solid-sounding research to be funded?
    Second, what we are concerned about in the area of 
education is that foreign students comprise 40 percent of all 
Ph.Ds in science and engineering. This is not a xenophobic 
comment on my part. Nor do I have disdain about that. But in 
1987 it was 35 percent. Is it that we are not recruiting? Is it 
that also our grants are spartan and skimpy? You really leaned 
on me last year to raise the stipend.
    Could we have some practical things, in addition to those 
national priorities that you, the president, and OMB agree 
upon?
    Ms. Colwell. Senator, thank you for focussing me. You are 
absolutely right. In fact, I do have some charts of grants that 
we have not been able to fund that are rated very good or 
excellent and not able to fund because of insufficient 
availability of funding.
    We also have worked extremely hard to raise graduate 
student stipends because we know from the studies that we have 
done that especially minority students, it sometimes takes 7 
years to get to a bachelor's degree because they have to work; 
their families are unable to support them. They end up with a 
very hefty debt, so they are not able to go into graduate 
school. So we need to provide a graduate stipend that is 
appropriate.
    And we have just completed a very interesting study of 
grant size and duration in which it shows quite clearly that we 
need to have grants of approximately between $200,000 to 
$300,000 per year, not $113,000 per year and up to 5 years and 
not 3 years, as is the present case, for one major reason. We 
did a survey of about 6,000 people and got a 92 percent return 
and almost to a person they said that if they had the funds 
they would invest them in people--in graduate students, in 
post-docs, and that is exactly what we need in science and 
engineering for today and for the future.
    Senator Mikulski. I thought you competed for a grant to do 
research; you did not compete for a grant to make an 
investment. Have I missed something?
    Ms. Colwell. No, you have not missed--what I am telling you 
is that in order to better carry out the research, if the 
additional funds were available they would hire graduate 
students and post-docs to help them achieve their objectives 
and they would get more results faster and they would have the 
ability to explore ideas that they cannot explore now.
    Senator Mikulski. I appreciate that.
    I am going to turn to my colleague Senator Jeffords, one of 
the really leading spokesmen here in terms of public education, 
who I know will go to Senator Glenn and Dr. Verner.
    But how many--last two practical questions--about how many 
grant requests do you get a year and how many of those can you 
fund at the spartan level of $125,000?
    Ms. Colwell. We are now receiving 32,000. We got up until 
last year about 30,000. It is up to about 32,000 per year and 
we are able to fund 9,000. We have about $2.5 billion of grants 
that are rated very good or excellent that we cannot fund.
    Senator Mikulski. Even though you would like to double the 
size of the grant because it actually gives us better research, 
we also need to help the farm team for graduate students, which 
gives us more value for the dollar. The people playing single-A 
ball--I'm an Orioles fan, so bear with me--then go on to really 
major league research. Am I correct?
    Ms. Colwell. Yes, you are, Senator.
    Senator Mikulski. Well, thank you. There are so many other 
questions, but I am going to turn to my dear and esteemed 
colleague who has really helped keep the focus on public 
education in the Senate the way it needed to be.
    Senator Jeffords.
    Senator Jeffords. Thank you very much for those very kind 
words.
    Senator Glenn, you were not finished with your testimony, I 
believe.
    Senator Mikulski. Oh, I am sorry.
    Senator Glenn. Well, I was very close to it.
    Senator Mikulski. I thought you all had kept on talking. We 
would. We would talk to an empty room. John, you are 
disappointing me. I thought you had even talked to an empty 
room. I apologize.
    Senator Glenn. I was within a couple of minutes of winding 
down. I was just going to give some examples to wind up with on 
my remarks about--this will just take a couple of minutes 
here--examples of the need for this. You know, we have depended 
pretty much on our productivity going up and yet if we have a 
productivity increase of about 2.6 percent per year, we would 
double our standard of living every 25 years and that is a good 
objective. We do not do that without math and science.
    This is sort of a potpourri here, jumping around a little 
bit. The Department of Labor says we will have 20 million new 
high-tech jobs by 2008. And just in health sciences and 
computers we have 5.6 million new jobs by 2008. They say that 
in 1950, 80 percent of the jobs in the country were classified 
as unskilled, and now in the year 2000, 85 percent of the jobs 
are classified as skilled. You do not address that without math 
and science.
    Training Magazine estimates that business and industry 
spent $62.5 billion to train the people they needed in 1999. A 
member of our committee at the National Commission that I 
headed, one of our commission members was Craig Barrett, who is 
the head of Intel and I think everyone probably knows that 
Intel is the biggest computer chip manufacturer in the world. I 
think they make about 80 percent of them. They spend $160 
million a year training their people on things that he said 
about two-thirds of which is in areas that they should have had 
coming out of high school. $160 million a year, one company. No 
wonder they all wanted us to give waivers to let foreigners 
come in here, immigration waivers so that they could be put 
into these high-tech jobs.
    One of the Midwest think-tanks says the skills required for 
60 percent of all new jobs in the 21st Century are possessed 
now by only 20 percent of the current workforce.
    And some of the figures here, Department of Education 
figures, 1995 to 1996, nonresident aliens in engineering, math 
and info sciences, 35 percent of the bachelor's degrees, 44 
percent of the master's degrees. They are out-competing 
Americans and then going back home, going to be competitive 
with us there.
    Examples of what is happening are in Ireland. We do not 
think of Ireland as being a hub of great scientific activity, 
yet right now 60 percent of all the business application 
software sold in Europe comes out of Ireland because they have 
a good background in science and math.
    So anyway, those are just some summary remarks here, but 
just one thing that Dr. Colwell just mentioned in passing here 
was the military aspect of this thing. If we are really serious 
about the war that is going to be going on for the next 15 or 
20 years and we need whatever we need--we need nuclear 
deterrence, submarines, B-2 bombers, missiles, vaccinations, 
night vision, GPS, satellite communications, encryption, you 
name it right on down the lot--all based in math and science. 
If we get behind in those areas to any nation in the world or 
any group that wishes us ill in the world, we are just playing 
dangerous games with our future.
    So I am very much in favor of doubling, tripling, or 
whatever you can get for NSF. I think it is needed. I hear that 
one of the previous witnesses said they would triple NSF. If I 
had my way I would say five times NSF. I will go him two 
better.
    I just think it is that important that we get this back on 
track again and the difficulty is we do not have an education 
system where you plug this in and say here is what is going to 
happen. To repeat what I said a while ago, over 14,700 
independent school boards in this country doing their own 
thing, some of them excited about math, some of them thinking 
it is a waste of time. If it was good enough for me, it is good 
enough for my grandkids; that is their attitude and it is just 
too bad because if we could excite the school boards of this 
country to do something about it, maybe we would get a lot 
faster action, but we do not have that kind of a thing.
    I know when I was in the Senate if I had made a speech and 
said we should go to a national education system, I would have 
been run down the east steps of the Capitol before I could have 
gotten the words out, but here we have all these school boards 
that take great pride in their local ability, their local pride 
in local control, but they are not measuring up in local 
responsibility to see this danger for the future and do 
something about it. So thank you very much.
    [The prepared statement of Senator Glenn follows:]
    [GRAPHIC] [TIFF OMITTED] 80421.001
    
    [GRAPHIC] [TIFF OMITTED] 80421.002
    
    [GRAPHIC] [TIFF OMITTED] 80421.003
    
    [GRAPHIC] [TIFF OMITTED] 80421.004
    
    [GRAPHIC] [TIFF OMITTED] 80421.005
    
    [GRAPHIC] [TIFF OMITTED] 80421.006
    
    [GRAPHIC] [TIFF OMITTED] 80421.007
    
    [GRAPHIC] [TIFF OMITTED] 80421.008
    
    [GRAPHIC] [TIFF OMITTED] 80421.009
    
    [GRAPHIC] [TIFF OMITTED] 80421.010
    
    [GRAPHIC] [TIFF OMITTED] 80421.011
    
    [GRAPHIC] [TIFF OMITTED] 80421.012
    
    [GRAPHIC] [TIFF OMITTED] 80421.013
    
    [GRAPHIC] [TIFF OMITTED] 80421.014
    
    [GRAPHIC] [TIFF OMITTED] 80421.015
    
    [GRAPHIC] [TIFF OMITTED] 80421.016
    
    [GRAPHIC] [TIFF OMITTED] 80421.017
    
    [GRAPHIC] [TIFF OMITTED] 80421.018
    
    [GRAPHIC] [TIFF OMITTED] 80421.019
    
    [GRAPHIC] [TIFF OMITTED] 80421.020
    
    [GRAPHIC] [TIFF OMITTED] 80421.021
    
    Senator Jeffords. Thank you and you are right-on. I will be 
back to you.
    Dr. Verner, please proceed.

        OPENING STATEMENT OF DR. KEITH VERNER, CHIEF OF 
   DEVELOPMENTAL PEDIATRICS AND LEARNING, PENNSYLVANIA STATE 
                 UNIVERSITY COLLEGE OF MEDICINE

    Dr. Verner. Thank you very much. I guess before I start I 
would just like to say to Senator Glenn that I notice the same 
problem with school boards so I actually ran and got elected to 
be on one.
    Senator Glenn. Good for you.
    Dr. Verner. I am pleased to be here to discuss with you 
really the crucial challenge of improving basic science 
education. I do not need to cite how poorly our students have 
done on international tests in math and science because that 
has already come up here today, and I do not think I have to 
accentuate how important it is for our students to be able to 
think scientifically in an increasingly technological economy 
and society. So basically I am not here to point out the 
problem, but to suggest ways in which I believe that the 
scientific community can help address this problem.
    As a scientist who is dedicated to the mission of improving 
basic science education what I will do is just begin by 
describing a couple of our programs at the Penn State College 
of Medicine as a means of showing you an example of how the 
scientific community can address this problem.
    Now both educational experience and cognitive science 
suggest that science is best taught with a hands-on approach 
that blends the cognitive appeal of experimental activity with 
comprehensive, standards-based science instruction. But the 
ability to deliver meaningful hands-on science while making 
sure that there are no gaps in the conceptual basis of the 
curriculum requires that the curriculum directors have a very 
deep and comprehensive understanding of science and this is not 
an easy task.
    I therefore suggest that this challenge is best approached 
through collaborations, direct collaborations between 
practicing scientists and basic educators. What better way to 
interweave deep content expertise with practical classroom 
experience?
    This was essentially the vision that guided us to employ 
teams of scientists and public school educators at the College 
of Medicine to create what we ended up calling the LabLion 
Program for elementary school science. Its features include a 
dual emphasis: first, on promoting interest in science and 
conveying knowledge, and also in developing concise, complete 
and grade-appropriate inquiry-based lesson plans. This program 
is currently employed in many schools across Pennsylvania and, 
in fact, there are over 25,000 Pennsylvania elementary school 
children that are in this program at this time. This is just an 
example of the types of programs that can be derived from these 
interactions between scientists and educators.
    For science teachers, thinking in terms of scientific 
concepts and principles that, in the end, give meaning and 
context to scientific facts and formula is essential. And 
scientists can help in this regard by organizing content-rich 
educational experiences for teachers.
    To this end, as another example, we have designed and 
implemented the Governor's Institute for Life Science Educators 
in Pennsylvania over the past several summers. The Life Science 
Institute is an intensive in-residence program at the College 
of Medicine for 100 teachers per summer, and summer is a 
wonderful time at a medical school to bring in teachers like 
this, because we have the student housing available to us. 
Mornings are spent in activity-based group lessons that begin 
on Monday morning right after breakfast with the dissection of 
a human cadaver and gradually become more molecular as the week 
progresses, with strong integration of biochemistry and 
biophysics. Afternoon and evening sessions are devoted to grade 
level-specific scientific content and lesson plans, as well as 
different approaches to teaching strategies.
    Now such professional development programs, I believe, are 
a direct and very important way that the scientific community 
can help improve basic science education. Based on analysis of 
student NAPE scores and teacher professional development 
programs, Wenglinsky concluded, and I quote: ``In science, 
students whose teachers have received professional development 
in laboratory skills outperform their peers by more than 40 
percent of a grade level.'' That is very important.
    Now Title II, Part B of No Child Left Behind gives guidance 
and funding for preparing science teachers to meet this 
challenge of improving student performance. It is also, I must 
say, entirely consistent with what we have learned over the 
years in our K-12 science and health outreach efforts. Perhaps 
the most important, No Child Left Behind is very results-based. 
For the evaluation of professional development programs, for 
example, it prescribes that States measure the effectiveness of 
its professional development programs through increases in 
teacher subject mastery and student academic gains, and this is 
very important.
    I believe that this new law provides great promise for 
improving science and further, I believe that the National 
Science Foundation can and must play a major role in 
implementing these desperately needed changes.
    The National Science Foundation is an ideal champion for K-
12 science education because of its broad scientific expertise, 
and we have just talked about NIH. With all of the quality 
research it does, it very much leans toward the life sciences 
and yet we also know the very important contribution that 
physical sciences and mathematics make to fields like medicine 
itself.
    So the NSF is in an ideal position to take a leadership 
role in this. Over the years NSF supported important research 
and it has very much helped in maintaining America's leadership 
in the state that it is and it has demonstrated a growing 
dedication to improving basic science education.
    I believe that the recent involvement of the NSF in 
collaboration with the Department of Education specifically on 
the Math and Science Partnership Program offers, in my opinion, 
one of the greatest steps forward in this area in a decade or 
more. The NSF program directly addresses some of the best parts 
of the Title II of the No Child Left Behind Act and provides 
funding to make meaningful impacts. The program inspires 
interactions between university science departments--and I 
think that is important--science departments and basic science 
educators. It mandates approaches to education that are based 
on research and verifiable analysis of student performance. 
Importantly, it values teacher professional development and it 
puts the scientific community in a much more proactive 
position.
    Therefore, as a scientist and as a strong supporter for 
basic science education reform, I emphatically recommend 
doubling, tripling the program for the NSF.
    In my written report I have some specific recommendations 
that I would like to submit. I would be happy to answer any 
questions. Thank you.
    [The prepared statement of Dr. Verner follows:]
               Prepared Statement of Keith Verner, Ph.D.
    Mr. Chairman, and Members of the Committee: I am pleased to be here 
to discuss with you the crucial challenge of improving basic science 
education. I will not cite references pointing out poor U.S. student 
performance in international tests in math and science or the 
importance of being able to think ``scientifically'' in an increasingly 
technological economy and society. It is clear from recent legislation, 
from the involvement of the Department of Education and the National 
Science Foundation, and from this very hearing today, that we as a 
Nation are adequately aware of the urgent need to improve science 
education. Therefore, I am here today not to point out the problem, but 
to suggest ways in which the scientific community must help to solve 
it. I will begin by describing two of our science education outreach 
programs as examples.
       role of the scientific community in k-12 science education
    Both educational experience and cognitive science tell us that 
science is best taught with a ``hands-on'' approach that blends the 
cognitive appeal of experiential activity with comprehensive, 
standards-based science instruction. But the ability to enable 
meaningful hands-on science while making sure there are no gaps in the 
curriculum requires that the curriculum developers themselves have a 
deep and comprehensive understanding of science (Verner, K., 2002). I 
suggest that this challenge is best approached through collaborations 
between practicing scientists and basic educators--What better way to 
interweave deep content expertise and real-life classroom practice? 
This was the vision that guided us to employ teams of scientists and 
public school educators at the College of Medicine at Penn State 
University, over the past several years, to create the LabLion 
elementary school science program. Its features include a dual emphasis 
on promoting interest in science and conveying knowledge; concise, 
complete, and grade appropriate inquiry-based lesson plans (Ruiz-Primo, 
M.A., et al, 2002; Wenglinsky, H., 2000); readily available supplies; 
very low maintenance costs following installation (Levitt, K., 2001); 
and a strong professional development component (van Driel, J. H., et 
al, 2001; Haney, J. J., et al, 1996; Levitt, K., 2000; Monk, D. H., 
1994) among others. This program is currently employed in many schools 
across Pennsylvania, reaching more than 25,000 elementary school 
students, and we continually work with the educational community to 
improve it. Such blends of theory and classroom activity are needed for 
every level and sub-discipline of science education.
    For science teachers, thinking in terms of scientific concepts and 
principles that give meaning and context to scientific facts and 
formulae, is essential. Helping students to build scientific concepts 
requires an understanding of the relationships among their components. 
Teachers must see these relationships and understand the logic and 
organization of the relationships in order to teach the concepts to 
their students (National Academy of Sciences, 1999). Scientists can 
help by organizing content-rich educational experiences for teachers. 
To this end, we designed and implemented the Governor's Institute for 
Life Science Educators over the past several summers for K-12 teachers. 
The Life Science Institute is an intensive in-residence program at the 
College of Medicine for 100 teachers per summer. Mornings are spent in 
activity-based, scientific content-rich group lessons that begin on 
Monday morning with the dissection of a human cadaver and gradually 
become more molecular as the week progresses, with strong integration 
of biochemistry and biophysics (Appendix A). Afternoon and evening 
sessions are devoted to grade-level specific scientific content and 
lesson plans, as well as effective teaching strategies.
    Such professional development programs are a direct and very 
important way for the scientific community to help improve basic 
science education. Based on an analysis of student NAEP (National 
Assessment of Educational Progress) scores and teacher professional 
development programs, Wenglinsky concluded, ``In science, students 
whose teachers have received professional development in laboratory 
skills outperform their peers by more than 40% of a grade level.'' 
(Wenglinsky, H., 2000).
                          no child left behind
    Title II, Part B, Section 2002 of the No Child Left Behind Act 
gives guidance (and funding) for preparing science teachers to meet the 
challenge of improving student performance in science and is entirely 
consistent with what we have learned over the years in our K-12 science 
and health education outreach efforts. Perhaps most important, No Child 
Left Behind is results-based. For the evaluation of professional 
development programs, for example, it prescribes (section 2113 (c) (7)) 
that states measure the effectiveness of professional development 
programs through increases in teacher subject mastery and student 
academic gains.
    I believe that this new law provides great promise for improving 
science education. Further, I believe that the National Science 
Foundation can and should play a major role in implementing this 
desperately needed change.
                    the national science foundation
    The NSF is an ideal champion for K-12 science education because of 
its broad base of scientific expertise in a variety of disciplines, 
from molecular biology to oceanography and space exploration. Over the 
years NSF has supported important research that has been crucial to 
maintaining America's scientific leadership and demonstrated its 
growing dedication to improving basic science education.
    The recent involvement of the NSF, in collaboration with the 
Department of Education, in the Math and Science Partnership (MSP) 
program, offers the single most encouraging development in a decade. 
The MSP program directly addresses the best ideas put forth in Title II 
of the No Child Left Behind Act and provides funding to begin making a 
meaningful impact. The MSP program inspires interactions between 
university science departments and basic science educators. It mandates 
approaches to science education that are based on research and 
verifiable analysis of student performance. It values teacher 
professional development and puts the scientific community in a more 
direct and proactive position. As a scientist and a strong supporter of 
basic science education reform, I most emphatically recommend 
developing the MSP program further.
                        summary recommendations
    Schools should offer hands-on, inquiry-based science curricula at 
all levels. These curricula should cover a range of ``concepts'' 
providing context for factual knowledge that is essential for the 
scientific literacy American citizens need.
    Teachers should train students, from elementary school on, to 
develop a conceptual framework of scientific principles. Each new 
concept should be linked to previous concepts within the framework so 
that its inclusion is logical and relevant to preexisting student 
knowledge.
    Teacher preparation and professional development are key. Without 
adequate scientific experience and a scientific factual knowledge base, 
teachers are left to rely on science textbooks and have difficulty 
facilitating the building of conceptual frameworks by their students.
    The scientific community can and should have a significant impact 
on improving K-12 science education. This involvement is now mandated 
by the No Child Left Behind Act. The scientific community should be 
proactive, and its contributions may include: Developing K-12 science 
curricula with basic science educators; Providing ``scientific'' 
experiences for teachers at university laboratories so that they can 
develop a feel for scientific thinking; Developing summer institutes on 
university and medical school campuses to immerse basic science 
educators in the latest trends in scientific thinking; Collaborating 
with experienced, practicing educators to translate primary scientific 
research results from disciplines such as cognitive neuroscience and 
functional neuroimaging into innovative methodologies of classroom 
practice (Verner, K., 2001); Directing the scientific training of pre-
service teachers in schools and colleges of education to ensure that 
their training has a direct grounding in science; Integrating directly 
into the system of basic science education, in both instructional and 
administrative capacities, and supporting alternative teacher and 
administrative certification programs that facilitate such career 
transitions; and establishing deep intellectual collaborations with 
basic educators built upon mutual respect and guided by a shared 
commitment to improving student performance in, and enjoyment of, 
science.

    The Chairman. That is fine. Thank you and I thank all of 
you very much.
    I know that we had some response to Senator Mikulski on how 
we deal with the future with an expanded NSF budget and I know 
Senator Glenn talked a little bit about why this is important 
in terms of national security and national defense. I might try 
to come back to that, about how the role and importance of 
education and our defense and national security, which I think 
is enormously important. I do not know if you have said 
everything, John, that you wanted to say on that, but I will 
look forward to reading it in the record.
    Information technology, Dr. Colwell. One of the areas that 
I think we have a great need is using IT in terms of getting a 
handle on the costs in terms of health care. Five years ago, it 
cost $23 for a piece of paper to be filed in terms of the Mass 
General Hospital and Fidelity, and today Fidelity is 3 cents 
and going down to less than a third of a cent, and Mass General 
has gone up to $25.
    Health and defense are the two areas where IT has not 
really been used and used effectively. I am wondering if you 
could give us any sort of ideas about how we could follow up on 
that, how it could be used more effectively in terms of the 
control on health care.
    First of all, I think you do a great deal more in terms of 
quality of care because you would be able to monitor various 
kinds of outcomes. You would do better in terms of dealing with 
the problems of fraud in the health care area. In an industry 
that is $1,400 billion and spends close to $400 billion on 
administrative, I cannot believe you could not save a couple of 
hundred billion dollars.
    Ms. Colwell. There are a number of areas. One I would 
emphasize is cybersecurity, the ability to protect patient 
records and to be able to keep secure the information that is 
put into the database. That is one aspect.
    Another is manipulating very large databases. We are doing 
a lot of research and investing in the capacity to handle 
huge----
    The Chairman. Just before, on cyber issues and 
cybersecurity, of course, defense is spending a good deal of 
funds on that.
    Ms. Colwell. Yes.
    The Chairman. And I am just trying to think as we look at 
it say, for example, in health, you have the cybersecurity from 
defense. How do we benefit from that research? How do we 
benefit from your research? How do we sort of begin to bring 
some of this into being attractive to the private sector to be 
able to develop systems which would be able to do this?
    Ms. Colwell. Actually, the National Science Foundation and 
DARPA, the research projects agency, and the intelligence 
agencies have been collaborating especially since September 11, 
but we had already introduced a major program September 11 on 
cybersecurity because it is very important for industry, as 
well as the health care industry, so to speak.
    It is a theme that goes through the entire information 
technology world. I am told that we can expect next year a 
hacker break or virus every 10 minutes in our systems. That 
means that we have got to find ways now to be able to protect 
our databases, our information transfer systems, and we have to 
do it in a way that provides us with the security that we need 
domestically, as well as for defense.
    You asked about cost-cutting. Let me just give an example 
of DNA sequencing. It used to cost about a dollar a base pair 
and it is down to pennies and that is because we are able to do 
the kind of analysis of the huge volumes of data in a very much 
shorter period of time. What took us a month to calculate we 
can now do in hours or a day. That alone is a major cost-
effective approach to take and this depends on our being able 
to develop software and we are committed to investment in IT 
software for the next 2 years of the 5-year initiative and 
probably beyond because we have to sort of keep ahead 
constantly.
    That is one of the frustrating things about science. We 
scientists always tell you that here is the answer, but we 
still have to do more research, but that is the dynamics of 
being human beings and thinking beings.
    The Chairman. Could you talk a little bit about the 
nanotechnology? I asked two or three people about it who did 
not know and then I asked my son and he knew. At least he 
started off with a description that he'd been learning about. I 
would be very interested in what you are doing and how you see 
the technology.
    Ms. Colwell. Let me explain it as a microbiologist, if you 
will. A bacterium is about 1/25, 400th of an inch and a typical 
bacterium has a little whip-like appendage that propels it 
through an aqueous medium and that is driven by a tiny motor 
within the cell, which is probably a hundredth the size of the 
cell. So you are beginning to get the dimension of where we are 
working. We now have the capacity to make electromechanical 
motors about the size of a red blood cell, which means that we 
now can actually implant a motor on the wall of an artery or a 
vessel that will allow us to monitor blood pressure, perhaps 
even to monitor iron concentration if you tend to be anemic, on 
a continuous basis.
    And we are able to build materials from the atom on up so 
we can custom develop materials now in a way we never could 
before--stronger metals, stronger materials.
    So we have an entirely exciting future ahead at the nano 
scale. As Richard Fineman, a very famous scientist, physicist 
once said, ``At the very, very small level you can do very 
great things.'' I am paraphrasing him.
    So I think that it portends even greater wealth accretion, 
accumulation and development and job creation than information 
technology, and we already know what that has done for us in 
terms of being able to do the kinds of things we never could do 
before. With making things smaller and more effective and 
working from the atomic level up, we are able to, I think, 
create in a fantastic way in the future.
    So that is what we are working on and that is what we are 
investing in and we have in the budget about $280 million, I 
believe, of requests to keep us in the forefront, but I remind 
you in a visit to Japan a month ago the Japanese are investing 
$900 million for that country alone in nanotechnology because 
they do understand that that is the future.
    The Chairman. Getting a well-qualified teacher in every 
classroom, having that teacher competent in terms of math and 
science, giving teacher quality a priority in funding--you have 
outlined these recommendations. What is really necessary? I 
think you would find that the American people, of all the 
issues on education, the one that is at the top--there are a 
number that are very, very close to the top, but at the top is 
having a well-qualified teacher in the classroom.
    Now you list here the kinds of steps which are necessary to 
get there, but what is your sense, knowing the institution that 
you served nobly in and understanding what is happening out in 
the grassroots and having heard and having a series of 
hearings, what is the national will?
    Senator Glenn. Part of it is resources, but I think we 
addressed our report--we made sure the report got in the hands 
of every school board member in America--we think we got about 
85 percent of them--because we thought that is where the 
changes could be made more rapidly than anywhere else. And we 
have had some good responses back from some school board 
members, too, that are taking the issue to heart.
    The first thing we stressed, though, was improving the 
present status of math and science teaching in the classrooms 
right now. How do we take an existing bad situation where 25 
percent of the people teaching math never took that as a major 
or a minor, never were trained to teach math? I can see why up 
to the fourth grade I could probably teach math up to the 
fourth grade, but beyond that, when you get into algebra, 
advanced algebra, and so on, then you need special training to 
do that kind of teaching, and that is the reason why things 
fall off. Twenty percent of our science teachers, the same way.
    In the more lengthy report here this translates into 
greater numbers. It is up in the 60 percentile of our students 
that are not getting adequate training in math and science in 
the schools, particularly in the urban schools and some of the 
ones that have the least facilities, the least ability to get 
good teachers into those particular areas.
    To get good teachers right now and train the ones in place 
right now, we think you have to do a needs assessment. We had 
summer institutes, inquiry groups, leadership training, 
Internet portal access, coordinating councils, reward programs. 
They are all listed in the back of our report there as to what 
we think need to be done to upgrade people where they are right 
now.
    Number two, how do we get more people in? How do we recruit 
good people and improve their preparation? And we make some 
suggestions in that area of exemplary models that can be 
followed, some things to do on recruitment, math and science 
teaching academics, not brick and mortar, but reorganizing some 
of our teacher training areas, and improving the work 
environment, not the least of which is pay. We just refuse 
across the country to pay teachers what teachers are worth, so 
it is no wonder that the good math and science people are hired 
off by industry at probably double the salary that they are 
able to make as teachers. Business district partnerships are 
another area that we talk about, also.
    Also, in high school quite a different area, Mr. Chairman, 
has been mentioned here today, though I think we should be 
challenging our kids to a more rigorous course in school. I 
think that is a very important thing. You go to Japan or 
Germany or some of these other places around the world. You 
visit a classroom and the kids are generally about 2 years 
ahead of our kids in math and science in what they are 
studying. What our seniors in high school would be studying, 
they are studying as freshmen or sophomores in high school 
because they have a far more rigorous system that leads up to 
it.
    All that means that at the farther level down in the school 
system we need teachers better trained at a lower level if we 
are going to alter that, so that our kids come out of high 
school with the same level of education and do not need 
remedial education before they have to go on to even consider 
entering college.
    So it is a very tough one and particularly when we have our 
main support for education still the local school board, the 
local school district and what little equalizing funds that the 
States may be able to provide to certain districts. But it is a 
tough one and you have put your finger on the real part of the 
problem.
    The Chairman. My time has expired, but I was wondering if 
we could ask Linda Rosen if she would visit with our staffs 
some morning or afternoon and invite all of our Republican and 
Democratic staffs and on this and have a working session, as 
well. If she would be good enough to do that at some time that 
would be convenient, I think it would be very valuable.
    Ms. Rosen. I would be happy to.
    The Chairman. And what recommendations they have for us.
    Senator Jeffords.
    Senator Jeffords. Thank you. I am so pleased to be here 
with you today, because I think this is probably the most 
important hearing we could have for the future of this Nation.
    I am convinced that actually some of the problems are very 
simple. Like if you do not pay your teachers enough to stay in 
the job, you do not get the kids to learn too much.
    I talked to Rick Mills, head of the New York school system, 
and he says, ``Jim, you are absolutely right. Eighty-eight 
percent of my math teachers that are still there are over 55 
because they are locked into their pension program and I do not 
know what I am going to do when they all get to be the age to 
retire.''
    When I look over at what the rest of the world does and see 
how we handle our school systems relative to pay for teachers, 
I am shameful, shameful.
    Also, I would just point out that the H1B, we are now up to 
1 million certificates of H1Bs for kids to come in from foreign 
countries, young people coming from foreign countries to take 
the jobs that our young people should have. That is shameful 
that we are in that kind of a situation.
    But to me, you also analyze how--I need some studies done 
here and I hope you take note. How do we compare, for instance, 
with European and Asian nations on just how we pay our 
teachers? If you take a look at the amount of money that goes 
from the Federal Government around the world as compared to 
ours, about 30, 40, 50 percent of the money at the local school 
district comes from the Government. In our country, it is 7 
percent and you cannot compete with having to depend upon the 
local resources and the local property tax to pay the teachers.
    So unless we do something about getting the money to the 
areas that it is needed to hire the teachers, we are not going 
to attract the teachers or anything else. I hope maybe you can 
do a study for me and really outline as to what every other 
country does with respect to paying their teachers. Japan is 
the best example. They make sure that their teaching level of 
pay is within the top 10 percent of wage-earners in Japan, it 
is my understanding. These come from some of the work that the 
AFT did some years back. So I hope we can get some real 
credible information so that we can get to the core of this.
    Incidentally, the United States Government pays just 1 
percent of our total Federal budget toward education, 
elementary and secondary anyway, and I think post-secondary, as 
well. So it is a small amount and it is shameful that we do not 
put more into it.
    The only time we really did take notice was back after 
World War II when we had a similar situation. Right now we have 
no adequate number of math teachers. Back in World War II we 
had millions of GIs that came back that had nothing more than a 
high school education and many of them did not even have that. 
So what did we do? We passed the GI bill and that moved us from 
1 percent of the Federal budget up to 7 percent of the Federal 
budget and that brought about an incredible educational 
opportunity for all of our GIs. They motivated themselves and 
lobbied and got it done.
    So what I want to end up with is hopefully I can get the 
NSF to verify what I am saying because there is not anything 
else that really puts it together in a form that we can go back 
to Congress and say look, here is what everybody else in the 
world does and here is what we do and guess what? These are the 
results of us not doing that.
    So I would like maybe a comment or something, but I get so 
energized on this that I sometimes lose track of the time. 
John, do you have any comments you might make?
    Senator Glenn. Yes, I do. Out of our report on page 36, if 
you happen to have it right in front of you there, down in the 
lower left-hand corner, ``The National Center for Education 
Statistics reports that on average, teachers earn 29 percent 
less than other workers with a baccalaureate degree.'' That is 
just general, across the board baccalaureate, whatever they are 
going into. They earn 29 percent less--$35,048 per year 
compared to $49,362 per year. That was in 1997, a differential 
that has nearly quadrupled during the economic expansion of the 
1990s. It is getting worse instead of better. You would think 
that we would have learned enough that we are going to have to 
pay teachers to keep them in the job. And the demands of the 
economy and workplace are widening this gap. Given that the 
national average starting salary for teachers is $25,735, the 
teaching profession is nowhere near being a financially 
competitive option for most young people who leave college with 
backgrounds in math and science. And we have to change it; you 
are absolutely right.
    Senator Jeffords. Dr. Colwell, can you do some studies for 
me?
    Ms. Colwell. Yes, we can certainly provide the comparative 
data. I would add that this is an interesting phenomenon of the 
decline in performance of students that is beginning to appear 
in other countries, as well, including Japan. At the moment the 
Japanese students are performing better, but when I was talking 
to my colleagues in Japan a few weeks ago the science minister 
said yes, but once they get to university, they are not going 
into math and science majors.
    So it is a curious phenomenon. The performance in England 
of students in the elementary, middle and high schools is 
declining and the interest in science and mathematics is 
declining. And there is the immigration of students who are the 
scientists and engineers coming from countries like Turkey, 
Pakistan and India.
    So it is something that I think we have got to address in 
an international arena, as well. It is certainly very, very 
serious for us because we find that just as your own data 
quoted, Senator, that the majority of the students who are, let 
us say, doing a Ph.D. in electrical engineering will be--not 
even a majority, but almost all of them will be from other 
countries. We could depend on them to stay, but that is no 
longer something we can be sure of because they are beginning 
to return because of the opportunities back home.
    So it is something that we can look into for you, sir, but 
I do think that this is a kind of global phenomenon that we may 
want to have some sort of a summit study on.
    Senator Jeffords. Thank you. I just get so upset when I see 
what we could be doing and what we should be doing, but what we 
are not doing and we seem to think it is simple to get the 
local school boards to get on the stick or to spend more money, 
but I do not know how it is in--I know our State, the property 
taxes are so high now, trying to take care of the educational 
needs, if you want to get unelected, just try and raise the 
property taxes. And the only answer is the Federal Government 
has to do it and I am going to try to make sure they do, but we 
will see how that goes, but I would like to increase the amount 
that we pay each year, from 1 percent per year, increase the 
amount of money we put into the local schools and after about 
10 years we would be up to somewhere around where the Europeans 
are.
    I thank you very much.
    Senator Glenn.
    Senator Glenn. Just on the cost of this thing, in our study 
with this, in the back of this thing we put what we thought was 
necessary and broken down between the Federal, the State and 
local and what business might contribute and public-private 
back here. We came out with an estimate of a little over $5 
billion a year that is needed right now to do the teacher 
training and get it going now and do teacher training and 
recruitment training, and so on. It is in the back, the blue 
page, page 42 if you want to check out what our figures are.
    Senator Jeffords. Thank you.
    The Chairman. Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman. I am 
delighted that Senator Glenn is here with us testifying about 
these really important matters. And thank you, Dr. Colwell and 
Dr. Verner. I am just sitting here in great admiration 
listening to Chairman Kennedy and Senator Jeffords and Senator 
Glenn talk about this really important issue. I wish that more 
people had heeded their warnings in the past years because the 
three of them have certainly sounded the alarm and it is not 
getting any better. In fact, it is much worse in our poorer 
districts where we have concentrations of children of poverty 
whose first language is not English, who for all we know have 
tremendous math and science capability, but it is not being 
given an opportunity to flourish. I mean, they are basically 
off the track before they get started.
    So it is a double disgrace, Senator Jeffords, overall it 
is, because of our failure to make these investments, and then 
in particular, because of the people that it falls most heavily 
on.
    So I certainly hope that we will heed the recommendations 
of Senator Glenn's fine report and I hope that a lot of those 
school board members watch the video and read the report and I 
hope our colleagues will, as well, and perhaps we can, with 
your guidance, come up with some suggestions about how to turn 
this around.
    I support very strongly the increased funding for NSF. I 
think it is clear to all of us that we have to make these 
investments. Then, though, we have to act on what we learn. All 
too often, Washington--or at least this body--seems to be 
existing in an evidence-free zone and we have to figure out how 
to take the results of the work that NSF, the scientists whom 
you fund, the kinds of reports that Senator Glenn has 
championed, and actually use it as the basis for policy.
    So I think the first step is to make sure we provide the 
funding. The second step is actually to heed what you recommend 
to us and not continue to just proceed merrily along while the 
situation worsens.
    I had a couple of very specific questions, because 
certainly I am very proud of the fact that New York is a 
recipient of quite a bit of National Science Foundation funding 
and there were a couple of projects that I think hold great 
promise for our Nation, and indeed, the world that I wanted to 
inquire about, Dr. Colwell.
    About 5 years ago, scientists at Brookhaven National Lab, 
in collaboration with Stony Brook University, NYU, Syracuse and 
about a dozen others, submitted a proposal for exploring rare 
particle physics techniques called the rare violating processes 
or the RSV project. I have been told--I am certainly not an 
expert in this, but people whom I respect and trust have told 
me that if funded and the work is undertaken, RVP could 
potentially change our understanding of nuclear physics and 
nature. I know that the project passed the rigor of NSF peer 
review; it was placed on the to-do list. The scientists 
involved were assured that if their project did not make it 
into the fiscal year 2002 budget it would almost certainly be 
in the fiscal year 2003 presidential request. However, it was 
not included in either.
    As a result, it is kind of languishing in--I guess you 
could say ``the black hole of approved MRE proposals.'' There 
is more than $15 million in foreign contributions waiting to be 
expended, which is now on the verge of literally disappearing 
since the collaborators' international partners are losing 
faith in the selection process. And if I have one question and 
slight criticism of the process, because I think overall the 
NSF has done by far the best job of any federally-funded 
agency, it is that when scientists work as hard as these have 
to put into motion this kind of project, have literally global 
interest, and then it does not come through, it sets it back 
and it sets back the collaborative enterprise.
    So first, could you give me an update on the status of the 
RVP proposal and when you anticipate it would be funded? And 
second, is there a lesson that we should learn from this 
particular proposal, which is not unique, but is the one that I 
know the most about, that even after MRE projects have been 
approved in the competitive peer review process, we do not have 
any prioritized list and it is hard to know whether somebody 
should continue to wait, whether they should change direction 
even if it is a very worthy undertaking.
    So how would you help me understand where we are with that 
specific project and then more generally, what we can do to 
avoid these kinds of hang-ups in the future?
    Ms. Colwell. Well, the status of the RSVP is that it is in 
a small set of the National Science Board-approved projects 
that are waiting for inclusion in an NSF budget request and it 
is strictly a matter of at this point funds that are available.
    We have a very careful prioritizing process whereby these 
projects go through very intense screening and review within 
the foundation. They are then presented to the Science Board 
for additional evaluation and approval, but then, of course, 
must negotiate which projects get funded and we have a priority 
that those that are on-going will be funded because it would 
not be cost-effective to stop and start. Then those that have 
been approved and have gone through Science Board approval then 
will be in line to be submitted for budget request.
    A project becomes a candidate, is determined by a very 
systematic planning and review process, which involves 
scientific merit, feasibility and readiness. In the case of 
RSVP, it will depend on funds being available and we would hope 
that in the coming budget years we would be able to fund the 
project.
    I have to point out that quite rightly, and through no 
one's fault, there were no new starts in the fiscal year 2001-
2002 budget process, which created even more of a bottleneck, 
so now we do have several projects which we need to get through 
the budget process.
    Senator Clinton. And I guess the President's budget has a 
decrease. Is that right?
    Ms. Colwell. The decrease is----
    Senator Clinton. In MRE funds.
    Ms. Colwell. Yes.
    Senator Clinton. That reduces it by about 9 percent, right?
    Ms. Colwell. Part of that is due to one of the projects 
nearing completion, so it is not necessarily a decrease in the 
funding.
    Senator Clinton. Well, do you think we should increase MRE 
funding specifically in this reauthorization?
    Ms. Colwell. I think that the answer to the question is 
that scientists need tools and what we need to understand is 
that we fund people who have very good ideas. We fund their 
ideas, but they have to have tools to work with and tools mean 
telescopes, investment in platforms for research, like the 
earthquake engineering platform, the nanotech manufacturing 
initiative, and so forth. So scientists do need tools.
    Senator Clinton. Related to that is that, and this is, I 
think, a very hard decision, but one of the very few criticisms 
that I have heard is that the current NSF budget is rather 
heavily tilted toward the life sciences at the present time and 
that there are other sources for life science research, as 
compared to research in physics, chemistry, et cetera, which 
often lays the groundwork for future life science breakthroughs 
or at least in conjunction with life science research create 
the synergy that is needed for the kind of advances. Do you 
think we should address that in the reauthorization?
    Ms. Colwell. Let me answer that very directly. Actually, we 
do not have an imbalance within the NSF budget toward the 
biosciences and life sciences. In fact, the funding that we 
provide is funding for projects that would not be funded by 
NIH--fundamental ecology, fundamental developmental biology, 
study of organisms other than the human or closely related 
organisms.
    We fund within the life sciences some very, very important 
research. For example, the capacity for bioinfomatics really 
comes from the NSF funding of mathematics and biology. The 
genomics that we do, plant genomics, very critical. Senator 
Bond has been very, very supportive of that area. NIH would not 
be funding the Erabidopsis genome, for example. This is 
critical and very important funding.
    Indeed, the balance is important and we tried very hard to 
address that. And I think it is critical to point out that we 
also address very carefully the core disciplinary programs 
because it is very important to address the opportunities in 
interdisciplinary science, like nanotechnology, which involves 
biology, chemistry, engineering, mathematics, and you cannot 
have excellent nanotechnology if you do not have excellent 
engineering, chemistry, mathematics and physics. So clearly we 
have to continue investing in those core areas.
    And another aspect of it is that we have to tie that more 
and more to the social and behavioral sciences and we do have 
in our budget request $10 million to get established an 
initiative in the social behavioral sciences and the economic 
sciences. Those are very critical because we need to look at 
the computer-human interface. We must not make the mistake of 
making huge advances without bringing along an understanding of 
how humans interact with these new tools, with these new ideas.
    So yes, a balanced portfolio is really important.
    Senator Clinton. Well, certainly we hope that we can 
increase your funding so that a lot of these hard choices do 
not have to be made.
    Ms. Colwell. Thank you.
    Senator Clinton. I think we are at a point now where we 
have a tremendous opportunity to make advances along a range of 
scientific enterprises and endeavors that I hope that we will 
make the investments in and we need the pipeline that Senator 
Glenn has talked about so that we have scientists we can fund 
in the future.
    I just want to end with referring to the point that Senator 
Jeffords made with the visa issue because I think that we have 
to figure out a way to incentivize more of our own students and 
citizens because I think that we are going to have some 
continuing issues around the visas and we have to figure out a 
way to--it is something I have talked to Senator Jeffords 
about; he has a real passion about it and any ideas any of you 
have.
    I mean, it is not that we want to eliminate that process, 
but the process needs to recognize that right now all we have 
done is used it in many ways to fill positions that we should 
be taking a long-term approach toward filling ourselves. It is 
a short-cut way to try to provide some of the additional math-
science personnel that we need, but it is not a long-term 
solution.
    Ms. Colwell. May I offer a comment? I think both of you are 
extremely strong on a very important point, and that is we are 
now looking at the sources of the talent that we need in the 
future and community colleges do represent one very important 
one. Let me share my recent visit to Mercy College, which is in 
Tarrytown, New York.
    Senator Clinton. I know, right.
    Ms. Colwell. I gave a commencement address there recently. 
That is a very interesting institution because it has 10,000 
students and 80 percent of those students are attending college 
for the very first time in their lives. The average age is 29. 
Forty percent are Hispanic, 40 percent are African-American and 
20 percent are Asian and Caucasian. These students, the 
valedictorian was a refugee from, I believe, Afghanistan who 
arrived at Mercy College speaking no English at all and 
graduated as the valedictorian and gave the speech in English 
and has performed extremely well.
    I think the talent in the community colleges is sort of 
like Willy Sutton. Why did you rob banks? Because that is where 
the money is. Well, we are finding that that is where students 
are that we really need to bring into the workforce. So that is 
an area where we are making greater investment.
    Senator Clinton. I look forward to hearing about that 
because I agree with that completely.
    I have some additional questions that I will submit for the 
record.
    [The prepared statement of Senator Clinton follows:]
          Prepared Statement of Senator Hillary Rodham Clinton
    I would like to thank Chairman Kennedy and Ranking Member Gregg for 
holding this important hearing today on the reauthorization of the 
National Science Foundation.
    The National Science Foundation has a long-standing reputation as 
one of the federal government's most efficient and smoothly-operating 
independent agencies. In honor of those qualities, our Chair has 
decided to hold just one single hearing on the entire authorization. 
That is because while NSF faces crucial questions of the day related to 
our nation's progress--which we could discuss for days--we believe the 
agency does an excellent job and that this authorization will move 
swiftly. I do a have a few questions that I will raise later in the 
hearing.
    I am delighted that our committee could hear from such an esteemed 
panel of witnesses. It is a pleasure to see my friend, Senator John 
Glenn back in the Senate, where he left an outstanding legacy of 
promoting the education of the sciences from kindergarten to the 
postdoctoral years. And he continues to be such a strong voice through 
the John Glenn Institute for Public Service and Policy.
    The National Science Foundation is a national treasure. Since its 
establishment more than 50 years ago, it has fueled scientific 
discovery and spurred technological progress that has transformed our 
world into a place that is so vastly different from the nation we were 
at the close of World War II.
    Whether its life-saving technology such as magentic resonance 
imaging, or the dawning of the Information Age, with the creation of 
the internet, the National Science Foundation is the engine of 
progress.
    I am proud that New York has been on the forefront of that 
innovation. My state brims over with an extraordinary level of 
intellectual capital and promise. We have been blessed with hundreds 
upon hundreds of opportunities, thanks to the NSF. In fact, New York 
holds the distinct honor of having the second highest number of NSF-
funded projects, second to California.
    From Ithaca to Buffalo, and from New York City and Long Island, the 
NSF enables cutting edge research and state-of-the-art experimentation 
to take place in every corner of my state. Whether it's the Science and 
Technology Center for High Pressure Research at Stony Brook University 
exploring the properties of earth materials or the Sciencenter at 
Cornell where local elementary school children learn about things like 
nanotechnology and experience the excitement of science, the NSF 
delivers a bounty of gifts to all New Yorkers.
    New York holds a unique and enviable position in the emerging field 
of nanotechnology. Again, with the help of NSF, New York has become 
what I like to call ``the Nanotech State of the 21st Century.''
    New York is home to three of the nation's six nanocenters--located 
Columbia, Cornell, and Rensselaer Polytechnic Institute. These were 
created as a result of the National Nanotechnology Initiative (NNI) 
which was established during my husband's administration.
    Just this week, New York celebrated another exciting milestone in 
its emergence as the ``capital of Nanotechnology,'' when the Department 
of Energy announced its plans to create a seventh center at Brookhaven 
National Laboratory on Long Island. We are proud that the Center for 
Functional Nanomaterials at Brookhaven will be added to our amazing 
arsenal of scientific innovation.
    For all these reasons, New Yorkers have a lot at stake in the 
reauthorization of NSF. We believe, as the House Science Committee 
supports, that it is high time for us to double NSF budget over five 
years. The President has proposed a 5 percent increase or $240 million 
above the fiscal year 2002 level. But factor in inflation, and that 
increase amounts to a mere 1.4 percent.
    Second, while funding for NSF overall has increased from fiscal 
year 2001 to the fiscal year 2003 budget request, the physical sciences 
on the whole have not had their fair share of resources, particularly 
for individual investigator research grants, which have traditionally 
been at the core of the NSF mission. For example, support for physics 
research grants has declined by 1.5 percent from FYO1 to the fiscal 
year 2003 request; Chemistry research research grants support has grown 
by only 4.2 percent. However, the biological sciences have recently 
enjoyed a much more privileged provision with substantially higher 
increases. What's important to remember is that advances in the 
physical sciences are often the building blocks for advances in the 
biological and medical sciences.
    Finally, I would like to applaud the NSF for it's commitment to 
funding math and science education in the K-12 level in addition to the 
post-graduate and doctoral levels.
    As President Eisenhower used to say during the Sputnik days, an 
educated citizenry in the sciences is absolutely vital to our nation's 
security. Now as our nation tackles the formidable challenge of how to 
protect our Homeland Security, our investment in progress matters more 
than ever before and our desire to support the sciences and technology 
has become an imperative.
    Thank you.

    Senator Jeffords. I want to end with going to another area 
of great concern for me and that is early education--that is 
the preschool, especially the zero to five--as to where this 
Nation is in that regard. Again we are lacking miserably 
compared to the rest of the world.
    Just to give you some information, I know in our own 
office, for instance, one of my staff members has two children 
under 5 years, and so he stayed out all night, sleeping 
overnight, in order to get a slot to pay $1,000 per child to 
get an education in the early years. To me, every other nation, 
industrialized nation, anyway, except ours, provides that under 
the normal school system and I would hope maybe I can get some 
sort of study as to where we compare and what we are doing in 
this country because that is just terrible. As I remember, the 
studies in the late 1980s and early 1990s showed that if you do 
not get the education in the 3- to 4-year-old area, that you 
are bad off the rest of your life. I mean you are not going to 
maximize the rest of your life. Yet we provide very, very 
little for that.
    I would appreciate it if you have any information on that.
    Ms. Verner. I think you are absolutely right. As a matter 
of fact, there are a number of studies out now that show that 
there is a tremendously positive correlation between preschool 
programs and outcomes later in that child's life.
    Also, I think you could turn to neuroscience and cognitive 
studies now that clearly show that there is a massive and 
important amount of brain development that is occurring in 
children of exactly that age and probably in the 3- or 4-year-
old group there may be some real potential for developing sort 
of a continuum with the K-12 system, rather than individual 
activities in different types of preschools, but actually 
integrated into a system that the teachers can refer back to 
some of that early education.
    One of the things that comes out of cognitive science is 
that there is nothing more effective in education, in being 
able to get new information into the child's mind than 
referring to previous information and we should use those years 
of 3- and 4-years old to start putting information into their 
minds as a part of early education.
    Where we are right now, we have submitted a very small 
local grant with the Harrisburg school district for this 
LabLion program I talked about earlier, but part of that grant 
would actually be to try to develop a preschool extension of 
the elementary school science program and what does that look 
like? We are not necessarily talking about 3-year-olds with 
test tubes and graduated cylinders, but they can actually play 
games where something like density and direction is important 
for winning the game and maybe even use some of the tools that 
they will later use in their elementary science education and 
beyond.
    I just think that from my discussion with educators and 
from neuroscientists that we are certainly wasting a tremendous 
educational opportunity by not addressing the preschool years 
in a very serious way.
    Senator Jeffords. Thank you. That is what I wanted to hear. 
Now I feel a little more secure about calling an end to the 
hearing. I would like to stay the rest of the day, but I know 
you all have places to go and I feel like I am kind of 
monopolizing here.
    I tell you, we have a long way to go and I appreciate your 
information, which will help us get on the way. Thank you very 
much.
    [Whereupon, at 3:28 p.m., the hearing was adjourned.]
     


                                APPENDIX

              Prepared Statement of Senator Joe Lieberman
    I am grateful for this opportunity to speak on behalf of the Tech 
Talent program and the bipartisan legislation that I have introduced to 
permanently authorize this innovative initiative and to urge the 
Committee to include this provision in the upcoming reauthorization of 
the National Science Foundation.
    As the Committee well knows, America's technological prowess is 
unequaled in the world today--which is why, despite our economic 
slowdown and the financial burdens of prosecuting the war against 
terror and ensuring our collective defense, we still have the 
strongest, most vibrant economy on the planet.
    However, our long-term competitive standing and economic security 
could well be at risk if we do not address a troubling trendline in our 
workforce--the mismatch between the demand and supply of workers with 
science and engineering training.
    Studies show that the number of jobs requiring significant 
technical skills is projected to grow by more than 50 percent in the 
United States over the next 10 years. But outside of the life sciences, 
the number of degrees awarded in science and engineering has been flat 
or declining. This has helped fuel a well-chronicled shortage of 
qualified New Economy workers.
    We have tried to temporarily plug this human capital hole with a 
stopgap of foreign workers. Unfortunately, there is a broad consensus 
among high-tech leaders and policymakers that it could be a serious 
mistake to prolong this dependence and essentially render our GDP 
contingent on the supply of H-IB visa holders.
    That may sound like a bit of an overstatement to some. But the 
reality is that technological innovation is now widely understood to be 
the major driver of economic growth, not to mention a critical factor 
in our military superiority. It is widely understood, moreover, that we 
cannot expand our economy in the future if we don't take steps now to 
expand our domestic pool of human intellectual capital, the next 
generation of people who will incubate and implement the next 
generation of ideas.
    Now, most answers to serious economic challenges flow from the 
private sector, which is where growth ultimately occurs. But there are 
things that the Federal Government can do to help, particularly when it 
comes to educating and training our workforce. We can provide 
leadership focus, and not least of all, resources--and that is the 
purpose of the Tech Talent program.
    Specifically, the Tech Talent program aims to fix a critical link 
in this ``tech talent'' gap--undergraduate education in science, math, 
engineering, and technology. As established in our bill, it would 
provide competitive grants to institutions of higher learning--from 
universities to community colleges--to encourage them to find creative 
methods for increasing the number of graduates in these disciplines.
    This is not another scholarship program, but a targeted, results-
driven initiative that goes straight to the gatekeepers. We're not 
asking them to change their admissions policies, but, in effect, to 
design new ``e-missions'' policies. Come up with effective ideas, and 
we will provide the dollars to make them work.
    For example, institutions could propose to add or strengthen the 
interdisciplinary components of undergraduate science education. Or 
they could establish targeted support programs for women and 
minorities--who are 54 percent of our total workforce, but only 22 
percent of scientists and engineers--to increase enrollment in these 
fields. Or they could partner with local technology companies to 
provide summer industry internships for ongoing research experience.
    This initiative was conceived with strong bipartisan, bicameral 
support. Last year, Senators Mikulski, Bond, Frist, Domenici, and I 
introduced S. 1549, the ``Technology Talent Act of 2001''; a House 
companion bill, H.R. 3130, was introduced by House Science Committee 
Chairman Boehlert and Representative Larson. By the end of the year, 
Congress had agreed to appropriate $5 million for this fiscal year to 
jumpstart the program, even though our authorizing legislation had not 
yet been passed.
    Today, the number of co-sponsors of our authorizing bill has risen 
to 14 on the Senate side. The House bill, which now has 43 co-sponsors, 
received unanimous support during the House Science Committee markup, 
and is anticipated to reach the floor soon as the core of a larger 
undergraduate education bill.
    The program also has extremely broad support outside the Congress. 
The Administration has embraced Tech Talent as a priority, including 
funding for it in its budget request for FY 2003. And the response from 
leaders in industry, academia, and educational communities has been 
tremendous--we have received letters of support from TechNet, 
Semiconductor Industry Association, National Alliance of Business, K-12 
Science, Mathematics, Engineering & Technology Coalition, American 
Association of State Colleges and Universities, Texas Instruments, and 
the American Society for Engineering Education, to name but a few.
    Even more encouraging are the preliminary data obtained from NSF's 
Science, Technology, Engineering, and Mathematics Talent Expansion 
Program (STEP), which is the formal name of the Tech Talent program 
that NSF established with its FY02 appropriated funds. With enough 
money for between 10 to 15 grants, the NSF received 177 applications 
requesting a total of $59.7 million in aid--clear evidence of the vast 
interest in, and need for, the Tech Talent program among undergraduate 
institutions seeking to implement reforms in science and math 
education.
    We all realize that solving the undergraduate problem is not going 
to single-handedly close our talent gap. At the same time, we should 
also realize that the talent gap cannot be closed without first solving 
the problem at the undergraduate level. Therefore, I urge you to 
consider incorporating the Tech Talent program into this year's NSF 
reauthorization bill. In doing so, we will be helping to ensure that 
the young minds of today will be capable of mastering and fueling the 
high-tech economies of tomorrow.
                                 ______
                                 
          Prepared Statement of Senator John D. Rockefeller IV
    Chairman Kennedy and Members of the HELP Committee, I am proud to 
submit testimony today on behalf of a special, bipartisan initiative 
within the National Science Foundation (NSF) reauthorization bill that 
would promote math and science education, known as the National 
Mathematics and Science Partnership Act. I was proud to sponsor 
separate legislation last year with Senators Roberts and Kennedy. 
Chairman Kennedy, your longstanding commitment to quality education is 
well known, so it is always an honor to work so closely with you and 
others on education investments.
    This legislation, which is incorporated into the National Science 
Foundation authorization bill, is an important investment in elementary 
and secondary education, as well as our economy. This legislation would 
create the Mathematics and Science Partnerships at the NSF, it would 
invest in the Noyce Scholarships to attract top college math and 
science students to teach at disadvantaged schools, and it would 
provide a range of incentives to bolster math and science education, 
key subjects for our future. In addition to bipartisan support in the 
Senate, President Bush has included $200 million in his pending budget 
for the math and science partnerships.
    Placing a keen focus on developing quality partnerships with 
specific funding is targeted at improving teaching of technical 
subjects to students in elementary and secondary schools. We know that 
teaching of math and science in the early grades is pivotal to 
continuing science education in high school and college. Such 
partnerships will involve the broader community, including local 
business and industry, in the educational process. They increase the 
number of qualified teachers while providing for improved access to 
support in the form of materials, research opportunities, and Centers 
of Research on Learning.
    Too many studies have indicated that as a country, we are seriously 
failing to effectively convey to K-12 students scientific knowledge 
that is needed for them to excel in major technical fields. Our 
elementary and secondary students currently lack mastery of technical 
subjects. While our 4th graders are on par with the rest of the world, 
by the time they reach the 12th grade, they rank in the bottom half of 
countries in these areas.
    Students in this country arrive at college ill-equipped to study 
mathematics, science, and engineering. Part of the problem can be 
attributed to a serious shortage of qualified math and science teachers 
to guide our children. As a consequence, we are losing our competitive 
edge in the modern world. This is an intolerable situation for which 
there is no excuse. This initiative provides concrete action to solve 
the problem with a major long-term commitment to invest in our future 
by increasing funds to improve math and science education.
    Such partnerships can help prevent America from losing its 
competitive edge in the modern technological world. These partnerships 
will focus on a wide range of efforts, from professional development to 
curriculum reform for grades K-12. The partnerships may include the 
State educational agency and half must include businesses. The 
partnerships are intended to develop and evaluate innovative approaches 
to education in mathematics, science, engineering, and other technical 
subjects.
    In addition to the partnerships, I am particularly committed to 
encouraging qualified people to enter the teaching profession. This 
bill establishes a scholarship program for college students who commit 
to becoming K-12 math or science teachers after graduation. To keep 
educators at the top of their field, $15 million in grant money will be 
awarded for math and science teachers to do research and improve their 
own classroom performance. Twenty million dollars are set aside each 
year to expand the National Science, Mathematics, Engineering, and 
Technology Education Library, a digital library that disseminates 
scientific resources through the Internet. Strengthening math and 
science education within the National Science Foundation for elementary 
and secondary education is a high priority for me.
    The National Science Foundation has been a leader on quality 
education. My State of West Virginia has been enormously helped by 
several National Science Foundation education programs. The 
implementation of the Coordinated and Thematic Science (CATS) grant 
provided training to nearly 1,000 West Virginia teachers over a 5-year 
period. I met with the science teachers involved in this project and 
their enthusiasm and commitment was extraordinary. This statewide award 
has developed teams of mentor teachers of grades 7-10 who have provided 
outreach, support, and training to their colleagues. My State is also 
undertaking a similar initiative in math, known as Project MERIT.
    Another example of a successful education investment is the 
National Science Foundation's Teacher Enhancement Grant, which enabled 
my State to provide students with a solid foundation in science and 
technology. This grant has made it possible for students in West 
Virginia to become better equipped and more competitive in the 
workplace and in post-secondary classrooms. These efforts made a major 
difference in the quality of educational offerings available to 
students, as these programs have provided a tremendous opportunity for 
West Virginia to invest in our teachers and improve education in our 
schools. Given the strong record of success for National Science 
Foundation education initiatives, I believe that this new program is a 
worthwhile project for my State and our country.
    Strengthening the sciences is important not just for the sake of 
knowledge, but also to ensure that America remains at the forefront of 
major technological advances. Incorporating the National Mathematics 
and Partnership Act into the National Science Reauthorization bill 
should be a priority. These partnerships and investments in 
scholarships and professional development are key steps to reclaiming 
the lead in science and mathematics education. Throughout the process, 
I look forward to working with Chairman Kennedy and others to achieve 
our goals for math and science education.
                                 ______
                                 
            Prepared Statement of Jerome I. Friedman, Ph.D.
    Chairman Kennedy, Senator Gregg and Members of the Committee, I 
would like to thank you for the opportunity to submit testimony for 
this hearing to present my views about the National Science Foundation. 
At the outset, let me express my appreciation for the sustained support 
that you have provided for the NSF and for your commitment to improving 
NSF's ability to serve our national interests. I believe that the House 
of Representatives has shown great wisdom by supporting H.R. 4664, 
which includes authorization for a 15 percent increase for the NSF 
budget in each of the next 3 years. In preparing your own NSF 
reauthorization bill, Mr. Chairman, I urge you to support such an 
increase, and I hope that you will highlight the importance of the core 
research programs, since they provide the basis for all of NSF's high-
priority areas.
    My testimony today concerns two closely related issues: NSF's role 
in the development and operation of scientific facilities and the NSF's 
Major Research Equipment and Facilities Construction (MREFC) program, 
which was established to support the construction of such facilities. 
To provide a context for my observations and recommendations, let me 
begin by underscoring the extent to which science has changed since 
NSF's founding a little more than 50 years ago.
    During the first half of the 20th Century, industrial laboratories 
accounted for most of the research in the United States, both applied 
and basic. World War II changed the picture dramatically, and by the 
early 1960s, the Federal Government was sponsoring two-thirds of all 
American research activity. Excluding work performed under contract by 
the defense industry, most of those Federal funds supported research 
carried out by relatively small academic groups. Almost all the 
researchers were American citizens, and for the most part they worked 
in on-site university laboratories in self-contained scientific 
disciplines.
    The world of science in the 21st Century is remarkably different. 
Industry now accounts for more than two-thirds of R&D spending. But 
unlike the early post war period, when Bell Labs and other private-
sector facilities played starring roles in the basic research endeavor, 
industry now focuses almost strictly on short-term applied research. 
Today, corporations rely heavily on basic research carried out by 
university scientists, who are funded almost exclusively by the Federal 
Government. For that reason, agencies, such as the NSF, currently play 
an even more critical role in the science and technology enterprise 
than they did 50 years ago.
    It is important to recognize that the way in which university 
science is conducted has also changed significantly. Research groups 
are larger. Equipment is far more complex, and many scientists carry 
out their research at national facilities. The scientific disciplines 
are also far less disjointed: they have become intertwined and highly 
interdependent.
    Federal funding of basic research has tried to keep pace with the 
changing scientific landscape. Programs that cut across disciplines, 
such as the Nano-Science/Nano-Technology Intiative, have become 
integral to the Federal research portfolio. And large facilities, such 
as X-ray light sources and high-resolution telescopes, have become 
essential to the federally-supported research enterprise.
    Although its focus remains the university individual investigator, 
NSF today supports major facilities where many of these scientists 
carry out their research. The Cornell Electron Storage Ring (CESR), 
with its associated X-ray light source (CHESS), is one of the early 
examples. It has been an extremely productive facility and currently 
serves particle and condensed matter physicists, as well as structural 
biologists.
    But constructing and operating major facilities can have a 
substantial impact on NSF's overall programming. To prevent such 
projects from overwhelming the NSF budget and causing irreparable 
damage to the individual investigator core programs, NSF established 
the MREFC account a few years ago. It is a very worthwhile concept, but 
I believe that it is still suffering from growing pains. While MREFC 
projects undergo close scrutiny in a competitive peer-review process, 
NSF currently does not provide the science community or Congress with a 
prioritized list of approved projects. The lack of transparency has 
prevented orderly planning by the research community. As a result, 
science has suffered and international research partners have been left 
dangling.
    The Rare Symmetry Violating Processes (RSVP) project is a good 
example. Conceived almost 5 years ago, it passed the rigor of peer 
review and was placed on a ``to-do list'' by the National Science Board 
(NSB). The scientists involved were assured that if their project 
didn't make it into the FY 2002 budget, it would almost certainly be in 
the FY 2003 presidential request. Neither happened, and $15-million in 
foreign contributions is about to vaporize, since the collaboration's 
international partners are understandably losing faith in the selection 
process.
    To remedy the MREFC difficulties, I suggest that the NSF be 
required annually to submit to Congress the full list of approved 
projects in a prioritized order that has been established with the 
concurrence of the NSB. The NSF should provide an explanation of the 
criteria used for setting these priorities and a statement of its 
reasons for any deviations from the priorities it set the previous 
year.
    The NSF should also be requested to present a long-range strategic 
budget that takes into account the operation of the facilities it plans 
to construct. Otherwise core program budgets could be jeopardized when 
operating funds are needed to bring a new facility on line. I would 
also like to emphasize that core program and MREFC funds should not be 
commingled, either in planning or in practice. Finally, for management 
and oversight purposes, NSF's annual budget should have a separate line 
for facilities operation; and all projected facilities operation costs 
and MREFC construction costs should be presented each year as part of a 
rolling 5-year plan.
    In concluding my remarks, I would like to emphasize how important 
the National Science Foundation has been in advancing both science and 
education in our Nation. In addressing some of issues that I have 
mentioned, legislation should also contain features to increase the 
effectiveness with which the NSF can carry out its mission.
    The NSF is a national treasure. It stands as a model of peer-
reviewed science and individual investigator research. Its financial 
and programmatic health is essential to our Nation's future.
                                 ______
                                 
             Prepared Statement of Ioannis Miaoulis, Ph.D.
    The National Science Foundation--(NSF)--through its numerous 
investments in research and education, has made this Nation stronger, 
and better educated. At Tufts University, we are particularly proud of 
NSF's contributions since the founder of NSF, Dr. Vannevar Bush, was 
one of our own engineering students and graduates. His assistant in 
starting the National Science Foundation, Prof. Lloyd Trefethen, was 
actually my undergraduate advisor and mentor while I was an 
undergraduate at Tufts.
    The following constitutes my perspective concerning the 
reauthorization of NSF and its mission to advance science and 
engineering education. My comments center on three issues:
    The impact of NSF on the Nation's overall research and development 
portfolio and the benefits of NSF-funded basic research, including 
research done at Tufts University.
    The impact of NSF on science and engineering education and training 
programs in universities such as Tufts.
    The impact of NSF on improving K-12 science and engineering 
education programs and encouraging partnerships between K-12 schools 
and universities
    The impact of NSF on the Nation's overall research and development 
portfolio and the benefits of NSF-funded basic research, including 
research done at Tufts University
    During the past few years, there has been a significant shift of 
the sources of basic research from industry research facilities to 
university and national laboratories. Industries are focusing more and 
more on applied research and development with near-term high return on 
investment. A major contributor of the growth of the U.S. economy 
during the second part of the last century was Federal investment in 
basic scientific research. Investments in the areas of physical science 
and engineering have resulted in the best science and technology 
program in the world. Investments in these areas have also advanced 
other areas of science and even human health. A significant component 
of the research, which culminated with the development of the CAT scan, 
was conducted in our Physics department at Tufts under the late Prof. 
Cormack who won the Nobel Prize in Medicine in 1980. Clearly, computer 
science, mathematics, physics, and engineering are essential to the 
advancement of human health and provide the foundation for new 
discoveries in biomedical science. However, funding for the physical 
sciences and engineering has remained level, while the increase being 
proposed for the NIH for FY2003 alone is more than two-thirds of the 
current total FY2002 NSF budget. Our Nation has an unbalanced R&D 
portfolio, favoring the life sciences. Under-funding the physical and 
engineering sciences will in the long run have a detrimental effect on 
the life sciences.
    Inventions and discoveries that help humanity, such as X-ray 
machines and Penicillin, often occur serendipitously. From my personal 
experience, the NSF has been critical in supporting basic and applied 
research activities in my laboratory that has continued to lead from 
one exciting discovery to another. Moreover, the winding sequence of 
findings has been supported by a variety of NSF programs that defy 
logic. I began my research in studying thermal processing to 
recrystallize silicon films used for the microelectronics industry. 
This research was supported by the Engineering Directorate at NSF and 
has helped to improve the way we make computer chips. The research also 
led to an interesting discovery whereby minute changes in film 
thickness resulted in large changes in heat absorption and quality of 
the crystal.
    This fascinating phenomenon appeared to be a powerful means of 
controlling the thermal process. As an aside, I wondered whether nature 
had taken advantage of this phenomenon. Asking a graduate student to 
take a leap of faith, we delved into an exploration to find examples of 
biological thin films that utilize the phenomenon. We found that 
butterflies do, in fact, have thin films optimized to serve multi-
functions as signaling as well as collecting solar energy. The NSF 
Biology Division funded a project to develop an innovative tool to 
examine these structures. Our results found an amazing array of complex 
thin film structures, some that looked like spherical mirrors and 
others like pine trees in a forest. Why and how these structures are 
created is a subject of interest and debate among academic communities.
    These complex structures inspired my research team to look into 
emerging research areas in microelectromechanical systems and 
nanotechnologies. How can we create these microscale structures in 
innovative ways to serve interesting engineering functions? NSF's 
Engineering Directorate again is supporting my team's research into 
rapid manufacturing of microscale and mesoscale structures. This 
research may lead to new means of developing sensors and actuators to 
be used in Homeland Security as pathogen detectors or to create high 
throughput scanners to discover life-saving drugs. Through NSF's 
support of basic and applied research, we have been able to make a 
number of key findings that have linked together progressively.
    Other Tufts engineering faculty have obtained NSF support for 
fundamental studies into fibrous protein structure assembly for the 
past 6 years. These studies are supported through the Divisions of 
Materials Research, Bioengineering and Biology. The scientific insights 
gained from these studies have provided an improved understanding of 
this important family of structural proteins (e.g., collagens, silks). 
This information has led to the direct use of these proteins in new 
biomaterials applications and in new tissue engineering studies. The 
result of these efforts have included a variety of clinically relevant 
studies supported through the NIH, new interdisciplinary studies and 
opportunities for undergraduate, graduate and post-graduate students, 
and new spin-off companies based on the findings. Other engineering 
faculty at Tufts is working on NSF-funded projects that will 
revolutionize mammography techniques by using optical spectroscopy for 
imaging of human tissues.
    Although we have had our successes in attracting NSF funds for 
conducting basic research, we have had numerous disappointing moments. 
Many good ideas that are submitted and are rated excellent by the 
majority of the reviewers do not get funded. And the funding for the 
fortunate ones is limited in duration and annual amount. In his March 
12, 2002 testimony before your committee, Dr. Stephen Director from the 
University of Michigan, presented detailed statistics of this problem. 
Additional funds are needed to enable NSF to fund more great ideas at a 
higher funding level and duration. The Nation's creative minds should 
spend more time focusing on their research and less time trying to get 
funding.
  the impact of nsf on science and engineering education and training 
                 programs in universities such as tufts
    Two of the greatest challenges that our Nation's engineering 
schools face today are attracting and retaining students in general, 
and more specifically, women and students of color. Although the demand 
for engineering graduates has increased dramatically, engineering 
enrollments have decreased by approximately 15 percent during the last 
8 years. In addition, the percentages of students of color and women 
are quite small. Approximately 18 percent of the undergraduate 
engineering population nationally is female. It is difficult to attract 
engineering students, yet it is more challenging to retain them. It is 
customary for an engineering school to lose 30-50 percent of its 
undergraduate population during the undergraduate years. At Tufts, we 
have reversed both of these trends, and I strongly believe that without 
the support we received from NSF we would not have been able to 
succeed.
    Most students do not drop out of Engineering because they cannot 
handle the work. In fact, the national average grade point average of 
female students transferring out of Engineering is a B+. They transfer 
out because they simply do not find the field interesting. 
Unfortunately, most of them transfer out during their first year, 
before they have taken any engineering courses. Through a grant we 
received in the early 1990s from the Division of Undergraduate 
Education of NSF we were able to change the engineering curriculum so 
that in their first year, students take courses designed to introduce 
engineering in an interesting and playful way. We now have a pool of 
over 60 engineering courses that stem from personal research interests 
and hobbies of our faculty. We have courses focusing on acoustics 
(Design and Performance of Musical Instruments), Fluid Mechanics (Life 
in Moving Fluids), Heat Transfer (Gourmet Engineering), Biotechnology, 
and Digital Image Processing. They are taught by our best teachers with 
passion, since they created them and focus on their personal interest. 
We use to have a net loss of 15 percent of our undergraduates. With 
this NSF-funded curriculum we managed to become the only engineering 
school in the country where more students transfer into engineering 
from liberal arts than from engineering to liberal arts. We actually 
see an increase in our class size most years.
    Funding from NSF has enabled us to reshape our curriculum and make 
it attractive to both men and women. We were able to adjust our 
pedagogies in laboratory activities to better deliver the content to 
our students, and provide them with numerous opportunities to engage in 
research through NSF's Research Experiences for Undergraduate program. 
As a result, our program grew to be very desirable. During the last 8 
years, our application pool doubled, the average SAT scores of our 
incoming students increased by 70 points exceeding 1400, and the high 
school graduation ranking of our students decreased from top 13 percent 
of their class to top 5 percent of their class. Also the number of 
women students increased by 26 percent. About a third of our 
undergraduate students are women. The 4-year graduation rate of our 
women students is over 95 percent.
    Although we received a number of grants from NSF to be able to 
accomplish this, we had many, many excellent proposals rejected simply 
because of lack of funds. Just imagine the impact that NSF grants could 
have nationally in attracting and retaining engineering students if the 
Undergraduate Division had more funds to award. Many other engineering 
schools can design and implement programs such as the one that 
transformed our school.
 the impact of nsf on improving k-12 science and engineering education 
    programs and encouraging partnerships between k-12 schools and 
                              universities
    NSF is the most significant supporter of technological and 
scientific literacy in our Nation. For the last 15 years, the Tufts 
School of Engineering has been a national leader in engineering and 
science outreach in preK-12 schools. We have re-architected the entire 
K-8 science curricula for the public school districts, written 
textbooks that are currently used by millions of middle-school 
children, created Robolab, a Lego-based educational product that is 
used by more in more than 15,000 classrooms in twenty different 
countries and won numerous international awards. Our goal is to 
introduce engineering as a new discipline in all preK-12 public and 
private schools in the U.S. and make engineering an equally appealing 
and exciting discipline to both girls and boys. The National Science 
Foundation has been the biggest supporter of these efforts. 
Massachusetts is now the first State in the Nation to require, through 
standards-based programs and testing, engineering as a discipline, 
starting at the kindergarten level. Many other States have expressed 
interest in following Massachusetts' innovative step.
    Of course, not all children want to become, or should become 
engineers and scientists. While our Nation desperately needs more 
engineers and scientists who would clearly benefit from engineering 
education beginning in grade school, why introduce engineering to all 
young children?
    Technological literacy has become basic literacy. Most of the 
tangible products such as cars, telephones, and airplanes, and 
processes, with which we spend most of our lives, are technologies that 
resulted from engineering efforts. A literate citizen is one that 
understands the world around her. Children need to understand the 
engineering process and the results of these processes: the 
technologies, in order to become fully literate in our complex, human-
made world.
    Engineering offers an excellent platform for project/problem-based 
learning. Children have opportunities to move from observing and 
formulating ideas to constructing projects and communicating about 
their work. This problem/project-based learning helps children 
integrate knowledge from all disciplines, including math, science, 
social studies, English, and art.
    Engineering motivates students to pursue math and science studies. 
Partnerships among math, science and technology/engineering educators 
make for powerful teaching teams. Engineering brings math and science 
alive and creates links to everyday life. This important relevance 
factor encourages girls in particular, who typically chose profession 
that ``make a difference,'' to pursue careers in these male-dominated 
professions.
    Engineering sharpens young people's ability to visualize and think 
in three dimensions. Rather than exploring three-dimensional objects by 
building with models or taking apart radios, most children watch 
television, play computer games, and surf the Internet, building skills 
that sharpen eye-hand coordination in two dimensions. We are raising 
generations of people that cannot visualize things in three dimensions. 
By nurturing both spatial visualization and communication skills, 
engineering enhances children's ability to design and present ideas in 
graphical form. These skills improve students' understanding of the 
technological world, and enable them to become the problem-solvers and 
designers of tomorrow.
    NSF has been very supportive of our effort to introduce engineering 
into the lives of younger people. We currently are working at the State 
level with the Massachusetts Department of Education, with teachers 
through the professional associations, with targeted school districts, 
and with children. Our initial prototype program was a partnership 
between our School of Engineering and the Stow Schools of the Nashoba 
Regional School District in Massachusetts. This effort was funded by 
two different grants, from the Engineering Division, and the Human 
Resources division of NSF. Our success in changing the science 
performance of the children within two years is evident through the 
results of the statewide Science and Technology/Engineering tests at 
the fourth grade level. In 1998, 6 percent of the 4th grade students 
scored ``Advanced'', 66 percent ``Proficient'', 27 percent ``Needs 
Improvement, and 1 percent ``Failed''. In 2000, 31 percent scored 
``Advanced'', 62 percent ``Proficient, 7 percent ``Needs Improvement'', 
and 0 percent failed. The State averages in these categories stayed 
quite flat. The State averages for 2000 are 5 percent ``Advanced'', 37 
percent ``Proficient'', 32 percent ``Needs Improvement'', and 26 
percent Failed. Our partnership worked well. Enhanced NSF funding in 
these areas, can help other university-school partnership achieve 
similar results.
    We need enhanced funding for the University-School Partnerships 
program. We also need to include Engineering in the National 
Mathematics and Science Education Partnerships. Engineering schools can 
energize teachers at all levels and significantly enhance math, 
science, and technology/engineering preK-12 literacy. As a member of 
the American Society of Mechanical Engineers (ASME), I understand they 
have endorsed partnerships as a method to improve K-12 Science, 
Technology, Engineering, and Mathematics education. I encourage the 
committee to propose a change to the name and charge of the 
Partnerships to ``National Science, Mathematics, and Engineering 
Partnerships'' and to propose a significant increase of the funding of 
this NSF program. In addition, I encourage the committee to also 
support full funding for Science, Math, and Engineering education at 
the Department of Education as well. We have a unique opportunity to 
significantly enhance this important area of national interest. In 
closing, I feel that NSF budget increases will move us in the right 
direction in enhancing basic research, promoting diverse representation 
in the field, and promoting technological literacy of the citizens of 
tomorrow.
                                 ______
                                 
              Prepared Statement of Dr. Warren Washington
    Chairman Kennedy, Ranking Member Gregg, and Members of the 
Committee, I appreciate having the opportunity to testify before you as 
Chair of the National Science Board. I am Warren Washington, Senior 
Scientist and Section Head of the Climate Change Research Section at 
the National Center for Atmospheric Research.
    On behalf of the National Science Board, I thank the Committee for 
its sustained commitment to a broad portfolio of investments in 
science, mathematics, engineering, and technology research and 
education. These investments contribute to our Nation's long-term 
security and economic vitality and to the well being of all Americans.
            the national science foundation's budget request
    The National Science Board has approved and supports the National 
Science Foundation's budget request for fiscal year 2003. The 5 percent 
increase in funding will allow NSF to continue to nurture the people, 
ideas, and tools needed to generate new knowledge and new technologies. 
Among the important initiatives that this budget includes are 
priorities for the science and engineering workforce; mathematical and 
statistical science research that will advance interdisciplinary 
science and engineering; and research in the social, behavioral, and 
economic sciences to explore the complex interactions between 
technology and society. The budget continues support for the Math and 
Science Partnership program; increases funding for the Foundation's six 
priority areas, which have the potential of enormous payoff for the 
Nation; and provides a much-needed increase in annual stipends for 
graduate fellows--a critical investment the future U.S. science and 
engineering workforce. The NSF Director, Dr. Rita Colwell, will discuss 
these and other specifics of the budget request in her testimony.
    As this Committee recognizes, NSF is a major contributor both to 
scientific research and science education. Federal investments in the 
basic sciences through NSF have produced new discoveries and new 
technologies essential to our national security and economic 
prosperity. In addition, NSF supports innovative education programs 
from pre-kindergarten through graduate school, preparing the next 
generation of scientists and engineers and contributing to a more 
scientifically literate workforce and society.
    Each year NSF evaluates, primarily through external peer review, 
32,000 proposais from 2,000 colleges, universities, and institutions. 
The value of the proposals is approximately $16 billion. NSF annually 
makes 10,000 awards, totaling nearly $3 billion, in a highly 
competitive merit review process. It is estimated that NSF proposals 
representing an additional $5 billion are worthy of investment if the 
funds were available.
          the health of the science and engineering enterprise
    The new knowledge and technologies emerging today are a tribute to 
Federal research investments made years ago in a spirit of 
bipartisanship. When those investments began, no one could foresee 
their future impact. Revolutionary advances such as those in 
information technology, nanotechnology, materials, and biotechnology 
remind us that such breakthroughs with promising benefits to the 
economy, the workforce, our educational systems, and national security 
require long-term, high-risk investments.
    Among Federal agencies, NSF has the unique mission of advancing the 
Nation's health, prosperity, and welfare by supporting research and 
education in all fields of science and engineering. NSF plays a 
critical role in supporting new discoveries and knowledge as well as 
innovative educational programs at all levels. NSF-funded research and 
education are critical to sustaining U.S. strength in science and 
technology, a key element of national security.
    Despite widespread recognition of the benefits that result from 
federally-supported scientific research, as a Nation, we are seriously 
under-investing in basic research. In our $10 trillion Gross Domestic 
Product, the Federal Government budgets $24 billion to basic research, 
which represents one-fourth of 1 percent of the Nation's Gross Domestic 
Product. Of the $24 billion, NSF receives $3 billion to support 
cutting-edge science and the search for new knowledge.
    Achieving a balanced portfolio in the basic sciences is as 
important as the quality and quantity of research funded. For example, 
as Congressional leaders and others have pointed out, the success of 
the National Institutes of Health's efforts to find cures for deadly 
diseases depends heavily on the underpinning of basic research 
supported by the National Science Foundation.
                 national science board policy studies
    In addition to providing oversight to NSF, the Board provides 
advice to the President and the Congress on matters of science and 
engineering policy. I would like to mention some of our current 
activities related to major issues affecting the health of the science 
and engineering enterprise.
             federal investment in science and engineering
    The level of Federal investment is crucial to the health of the 
science and engineering enterprise. Equally crucial is how effectively 
that investment is made. The growing opportunities for discovery and 
the inevitable limits on Federal spending mean that hard choices must 
be made and priorities set.
    In its recent report, Federal Research Resources: A Process for 
Setting Priorities, the Board offers its recommendations for a more 
effective budget process, including an improved information base and a 
decision-making process for allocating Federal funding to research. The 
Board's conclusions are based on reviews of the literature on budget 
coordination and priority setting for public research and invited 
presentations from and discussions with representatives of the Office 
of Management and Budget, the Office of Science and Technology Policy, 
the Federal research and development agencies, congressional staff, 
high-level science officials from foreign governments, experts on data 
and methodologies, and spokespersons from industry, the National 
Academies, research communities, science policy community, and academe.
     u.s. government role in international science and engineering
    In the 21St Century, advances in science and engineering will to a 
large measure determine economic growth, quality of life, and the 
health and security of our planet. The conduct, communication, and use 
of science are intrinsically global. New ideas and discoveries are 
emerging all over the world and the balance of expertise is shifting 
among countries. Collaborations and international partnerships 
contribute to addressing a broad range of international problems. They 
also contribute to building more stable relations among nations by 
creating a universal language and culture based on commonly accepted 
values of objectivity, sharing, integrity, and free inquiry. The 
Federal Government plays a significant role in promoting international 
science and engineering activities and supporting research with 
international dimensions.
    In its recent report entitled Toward a More Effective Role for the 
U.S. Government in Intemational Science and Engineering, the Board 
concludes that new approaches to the management and coordination of 
U.S. international science and engineering activities are needed if the 
United States is to maintain the long-term vitality of its science and 
engineering enterprise and the vitality of its economy. The Board 
recommends that the Federal Government: (1) increase the effectiveness 
of its coordination of international science and engineering 
activities; (2) increase international cooperation in fundamental 
research and education, particularly with developing countries and by 
younger scientists and engineers; and (3) improve the use of science 
and engineering information in foreign policy deliberations and in 
dealing with global issues and problems.
              u.s. science and engineering infrastructure
    An area of constant concern for NSF and the Board is the quality 
and adequacy of infrastructure to enable scientific discoveries in the 
future. The rapidly changing environment of new knowledge, new tools, 
and new information capabilities has created a demand for more complex 
and more costly facilities for scientific research.
    A Board task force is assessing the current status, changing needs, 
and strategies needed to ensure that the Nation will have the 
infrastructure to sustain cutting-edge science and engineering 
research. We expect to receive the task force's preliminary findings 
this summer.
        national workforce policies for science and engineering
    For U.S. leadership in science and engineering, there is no more 
important issue than the development of a skilled technical workforce. 
As a Nation, we are not attracting the numbers of science and 
engineering students our Nation needs to sustain its leadership. Nor 
are we successfully tapping all our domestic resources, especially 
under-represented minorities and women. The pool of potential science 
and engineering students will increasingly reflect the growing 
diversity in the American workforce and society.
    A Board task force on workforce policies for science and 
engineering is reviewing U.S. workforce needs, the role of foreign 
students and workers, and policy options for ensuring an adequate 
science and engineering workforce for the future. We anticipate 
receiving the task force's report by the end of this year.
    Mr. Chairman, at this point I would like to close my formal 
remarks. I thank the Committee for its long-time support of the science 
community, especially the National Science Foundation, and for allowing 
me to comment on significant national policy concerns, as well as on 
the Foundation's budget request.
                                 ______
                                 
   Prepared Statement of the American Society of Mechanical Engineers
                              introduction
    ASME International is a 125,000-member organization focused on 
technical, educational and research issues. ASME conducts one of the 
world's largest technical publishing operations, holds numerous 
technical conferences worldwide, and offers hundreds of professional 
development courses each year. ASME sets internationally recognized 
industrial and manufacturing codes and standards that enhance public 
welfare and safety.
    In a survey this year, ASME members ranked pre-college science, 
technology, engineering, and mathematics (STEM) education as our number 
one public policy priority. Another issue of importance to our members 
is the desire to increase the Federal investment in research and 
development, particularly in the physical sciences. The National 
Science Foundation (NSF) plays a critical role in both of those 
priorities.
                         pre-college education
    The engineering community has long been concerned with the state of 
pre-college science, technology, engineering, and mathematics (STEM) 
education. To increase student learning in these areas, and enable the 
United States to compete globally with a strong, technologically 
literate workforce, we need to commit a significant amount of resources 
for STEM education now.
    The U.S. Commission on National Security for the 21st Century 
warns, ``The harsh fact is that the U.S. need for the highest quality 
human capital in science, mathematics, and engineering is not being 
met. We not only lack the homegrown science, technology, and 
engineering professionals necessary to ensure national prosperity and 
security, but also the next generation of teachers of science and math 
at the K-12 level. The Nation is on the verge of a downward spiral in 
which current shortages will beget even more acute future shortages of 
high-quality professionals and competent teachers.''
    According to the 2000 National Assessment of Educational Progress 
(NAEP), student science scores for grades 4 and 8 are flat and there 
has been a slight decline in scores for grade 12 since the assessment 
was last administered in 1996. Furthermore, 84 percent of science 
teachers and 86 percent of mathematics teachers in grades 5-8 did not 
major in science or mathematics. This report further underscores the 
need for reform and investment in math and science education, 
particularly at a time when our economy, national security and 
technological advances are heavily dependent on the quality of our 
future workforce.
    The National Science Foundation has funded a number of programs, 
which are consistent with ASME's pre-college science, technology, 
engineering, and mathematics (STEM) education policy. Specifically, we 
support programs that: increase federally-funded research focused on 
STEM teaching and learning to cultivate the most effective teaching 
methods; recruit, train, and retain qualified STEM teachers to meet 
demand; foster partnerships among educational institutions, industry, 
and non-profit organizations; encourage the adoption of curriculum 
standards that cultivate high student performance; the development of 
curricula that foster creativity, experiential problem-solving and 
critical thinking, and, the development of assessments aligned with 
these standards and curricula; and, encourage women and minorities to 
pursue STEM coursework and careers.
    The ASME Council on Education supports S.1262, by Senator 
Rockefeller, et al. In particular, we support: (1) the inclusion of 
engineering departments as eligible partners and technology teachers 
within the definition of math and science teachers; (2) the Robert 
Noyce Scholarship Program to attract science, math and engineering 
majors and professionals to teaching; (3) the Teacher Research 
Scholarship Program to provide STEM related research experiences for 
teachers; and (4) efforts to attract greater participation of women and 
minorities in STEM pre-college, undergraduate and graduate coursework 
and eventually STEM careers.
                  undergraduate and graduate education
    During the next decade, the U.S. demand for scientists and 
engineers is expected to increase at more than double the rate for all 
other occupations, according to the National Science Board. The need 
for a scientifically literate population is essential for our economy 
and our national security. Moreover, technology and the innovations it 
has spawned drive productivity gains and economic growth.
    But today's high school students are not performing well in math 
and science overall, and a decreasing number of American students are 
pursuing degrees in technical fields. America's K-12 students score far 
below the best in the world on domestic and international tests.
    Senators Lieberman, Bond, Frist, Mikulski and Domenici introduced 
S.1549, ``The Technology Talent Act,'' designed to increase the United 
States' technically trained workforce. It is imperative to develop a 
highly skilled workforce to maintain our national security and foster 
future economic growth.
    This legislation encourages universities to partner with community 
colleges, industry organizations, professional societies and local 
schools to pave the way for students of all ages and backgrounds to 
further their interests in science, technology, engineering, and 
mathematics (STEM) coursework and career paths.
    In October 2001, the deans of engineering and the deans of 
education from 50 universities met in concert to develop strategic 
collaborations to enhance K-12 teacher preparation in STEM and to 
invigorate engineering education. Collaborations of this type can and 
should be replicated by more universities and across all science, 
mathematics, engineering, and technological disciplines.
    This bill will assist in the development and implementation of 
innovative approaches to increasing enrollments and graduates in key 
STEM degrees. Providing incentives and rewards to educational 
institutions for increasing STEM enrollments and graduates is an 
excellent approach to jumpstart that process, therefore the Council 
supports enactment of S.1549.
                     research & development funding
    The Council acknowledges the visionary leadership role that NSF has 
played in guiding the Nation's basic research and development 
activities. NSF has greatly contributed to the technological 
superiority that the United States enjoys today. As such, the Council 
strongly endorses the Foundation and its efforts to improve and expand 
the innovative ideas, outstanding people, and cutting-edge tools that 
comprise the Nation's technological and scientific infrastructure.
    However, the decline in Federal R&D funding remains a major 
concern. ASME members are particularly concerned over the widening gap 
between Federal funding of life sciences and the physical sciences and 
engineering, and therefore support efforts to dramatically increase NSF 
funding. The Council strongly encourages members of the Committee to 
consider the following points during its deliberations: the critical 
need for the Nation to increase its support for the R&D portfolio 
including a viable component of pure science and engineering research; 
enhancing the integrity of the core research mission of the NSF in 
light of its new responsibilities; the need for balance within NSF 
between its initiative-driven research and developing and maintaining a 
healthy core effort; and, that the integrity and strength of NSF must 
remain rooted in strict adherence to a rigorous peer-review process 
free from earmarking.
    The Council supports: (1) increasing the size and duration of NSF 
grants, which will allow scientists and researchers to produce more 
results and spend less time writing grants; (2) increasing graduate 
stipends, which will attract more undergraduates to pursue graduate 
degrees in science and engineering; and (3) increasing funding for the 
NSF by 15 percent for fiscal years 2003-2005, (like H.R. 4664) thereby 
placing the NSF budget on a doubling track.
[GRAPHIC] [TIFF OMITTED] 80421.022

[GRAPHIC] [TIFF OMITTED] 80421.023

[GRAPHIC] [TIFF OMITTED] 80421.024

[GRAPHIC] [TIFF OMITTED] 80421.025

[GRAPHIC] [TIFF OMITTED] 80421.026

[GRAPHIC] [TIFF OMITTED] 80421.027

[GRAPHIC] [TIFF OMITTED] 80421.028

[GRAPHIC] [TIFF OMITTED] 80421.029

[GRAPHIC] [TIFF OMITTED] 80421.030

[GRAPHIC] [TIFF OMITTED] 80421.031

[GRAPHIC] [TIFF OMITTED] 80421.032

[GRAPHIC] [TIFF OMITTED] 80421.033

[GRAPHIC] [TIFF OMITTED] 80421.034

[GRAPHIC] [TIFF OMITTED] 80421.035

[GRAPHIC] [TIFF OMITTED] 80421.036

[GRAPHIC] [TIFF OMITTED] 80421.037

[GRAPHIC] [TIFF OMITTED] 80421.038

[GRAPHIC] [TIFF OMITTED] 80421.039

[GRAPHIC] [TIFF OMITTED] 80421.040

[GRAPHIC] [TIFF OMITTED] 80421.041

[GRAPHIC] [TIFF OMITTED] 80421.042

[GRAPHIC] [TIFF OMITTED] 80421.043

[GRAPHIC] [TIFF OMITTED] 80421.044

[GRAPHIC] [TIFF OMITTED] 80421.045

[GRAPHIC] [TIFF OMITTED] 80421.046

[GRAPHIC] [TIFF OMITTED] 80421.047

[GRAPHIC] [TIFF OMITTED] 80421.048


</pre></body></html>
